<html>
<title> - THE IMPACT OF VISA PROCESSING DELAYS ON THE ARTS, EDUCATION, AND AMERICAN INNOVATION</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
   THE IMPACT OF VISA PROCESSING DELAYS ON THE ARTS, EDUCATION, AND 
                          AMERICAN INNOVATION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 4, 2006

                               __________

                           Serial No. 109-140

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
27-512                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
------ ------

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 4, 2006....................................     1
Statement of:
    Edson, Tony, Deputy Assistant Secretary for Visa Services, 
      U.S. Department of State; and Jess T. Ford, Director, 
      International Affairs and Trade, U.S. Government 
      Accountability Office......................................    11
        Edson, Tony..............................................    11
        Ford, Jess T.............................................    22
    Ma, Yo-Yo, artistic director, the Silk Road Project, Inc.; 
      Sandra L. Gibson, president and chief executive officer, 
      Association of Performing Arts Presenters; Dennis J. 
      Slater, president, Association of Equipment Manufacturers; 
      Kevin Schofield, general manager, strategy and 
      communications, Microsoft Research; and Elizabeth C. 
      Dickson, advisor, immigration services, Ingersoll-Rand Co., 
      and Chair, U.S. Chamber of Commerce Immigration 
      Subcommittee...............................................    57
        Dickson, Elizabeth C.....................................   109
        Gibson, Sandra L.........................................    63
        Ma, Yo-Yo................................................    57
        Schofield, Kevin.........................................    93
        Slater, Dennis J.........................................    80
Letters, statements, etc., submitted for the record by:
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     3
    Dickson, Elizabeth C., advisor, immigration services, 
      Ingersoll-Rand Co., and Chair, U.S. Chamber of Commerce 
      Immigration Subcommittee, prepared statement of............   111
    Edson, Tony, Deputy Assistant Secretary for Visa Services, 
      U.S. Department of State, prepared statement of............    13
    Ford, Jess T., Director, International Affairs and Trade, 
      U.S. Government Accountability Office, prepared statement 
      of.........................................................    24
    Gibson, Sandra L., president and chief executive officer, 
      Association of Performing Arts Presenters, prepared 
      statement of...............................................    66
    Ma, Yo-Yo, artistic director, the Silk Road Project, Inc., 
      prepared statement of......................................    60
    Schofield, Kevin, general manager, strategy and 
      communications, Microsoft Research, prepared statement of..    95
    Slater, Dennis J., president, Association of Equipment 
      Manufacturers, prepared statement of.......................    82
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................     7


   THE IMPACT OF VISA PROCESSING DELAYS ON THE ARTS, EDUCATION, AND 
                          AMERICAN INNOVATION

                              ----------                              


                         TUESDAY, APRIL 4, 2006

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:01 a.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis 
(chairman of the committee) presiding.
    Present: Representatives Tom Davis, Shays, Platts, Duncan, 
Issa, Porter, Foxx, Schmidt, Waxman, Cummings, Kucinich, 
Watson, Van Hollen, and Norton.
    Staff present: David Marin, staff director; John Hunter and 
Jim Moore, counsels; Rob White, communications director; Andrea 
LeBlanc, deputy director of communications; Brien Beattie, 
professional staff member; Teresa Austin, chief clerk; Sarah 
D'Orsie, deputy clerk; Phil Barnett, minority staff director/
chief counsel; Michael McCarthy, minority counsel; Earley 
Green, minority chief clerk; and Jean Gosa, minority assistant 
clerk.
    Chairman Tom Davis. Good morning. The committee will come 
to order.
    I want to welcome everybody to today's hearing on the 
challenges facing the State Department in balancing security 
and efficiency in the visa process. The purpose of this hearing 
is to highlight the Department's efforts to cope with the ever-
increasing visa application volume in the post-September 11th 
security environment. We also will examine the impact of this 
process on American economic and cultural vitality and explore 
ways Congress can ensure that the United States remains open 
and accessible.
    Following the September 11th attacks, we came to understand 
that our borders begin overseas at our consulates and that the 
process of granting a visa to foreign citizens seeking to 
travel here is the first line of defense in protecting the 
homeland from terrorist attack. Each of the September 11th 
terrorists had at some point been vetted through a U.S. 
consulate and received a visa. Consequently, the Government has 
gone to great lengths to secure the visa process.
    Congress mandated that nearly every applicant for a visa be 
interviewed, the State Department began collecting biometrics 
on all applicants, and many new consular employees were hired. 
This state of affairs, however, has placed tremendous strains 
on the visa process. Currently, some applicants for visas to 
the United States can face daunting waits just to get 
interviews, while others face merely seasonal spikes in wait 
times or little wait at all. Indians, in particular, face 
interview wait times ranging from 100 to 160 days. That is 
simply unacceptable.
    In our increasingly interconnected world, ease of movement 
across national borders--of people and of capital--is 
inextricably tied to economic prosperity. A quest for perfect 
security is a fool's errand. Instead, we need to find ways to 
maximize security while simultaneously preserving the vibrant 
and open character of American society. In other words, what 
risks are we prepared to accept and what burdens are we 
prepared to impose on legitimate travel to the United States? 
As the President signaled in his State of the Union address 
this year, the competitiveness of the American economy is a 
central concern for this Government, and an efficient visa 
process is a vital component of that agenda.
    American businesses need to be able to bring foreign 
partners and customers here on short notice; American 
universities need to continue attracting top-level foreign 
students many of whom will choose to stay in the United States 
and bolster our economy; and the American cultural scene will 
continue to remain vibrant only as long as foreign artists are 
able to bring their work to American stages and galleries. 
Trade shows and arts presenters in particular represent a 
significant segment of the U.S. economy, comprised largely of 
small businesses that do not always have the resources to cope 
with the significant additional expense of an inefficient 
process. When these important sectors of our economy are unable 
to do business in the United States, our collective quality of 
life suffers.
    One of our jobs in Congress is to make sure the executive 
branch has the tools it needs to do its job as efficiently and 
effectively as possible. At today's hearing I want to hear from 
our witnesses about ways that Congress can assist the State 
Department in streamlining the visa process, as well as 
creative suggestions for improvements to the process itself. 
For example, do we need to continue interviewing almost every 
applicant for visas once their biometrics are stored in 
Government data bases? Also, how can we make it easier for 
State to hire the employees it needs to maximize consular 
efficiency? These are just some of the questions the committee 
is interested in addressing today.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T7512.001
    
    [GRAPHIC] [TIFF OMITTED] T7512.002
    
    [GRAPHIC] [TIFF OMITTED] T7512.003
    
    Chairman Tom Davis. We have two distinguished panels of 
witnesses today, including international music maestro, Yo-Yo 
Ma, who has taken time out of his busy tour schedule to join us 
this morning. Again, I want to thank all of our witnesses for 
being here.
    I would now recognize our distinguished ranking member, Mr. 
Waxman.
    Mr. Waxman. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    The openness of American society is one of our Nation's 
greatest strengths. Unfortunately, as the September 11th 
hijackers demonstrated, our openness can sometimes be used as a 
weapon against us. In today's hearing, we will examine whether 
our visa policy is striking the right balance between openness 
to culture and innovation and protecting national security. I 
fear that we are not achieving that balance.
    Since September 11th, Congress and the State Department 
have mandated that nearly all applicants be fingerprinted and 
appear for a face-to-face interview before a visa can be 
issued. These requirements create a burden for applicants, who 
often have to travel great distances to the nearest U.S. 
consulate. The requirements were also a challenge for the State 
Department, which initially lacked--and may still lack--the 
consular officers and physical space to conduct large numbers 
of interviews in a timely way.
    As a result of these new policies, delays in visa 
processing exist in our embassies and consulates throughout the 
world. GAO will testify that the applicants in India can expect 
to wait nearly 6 months between submitting an application and 
appearing in person for an interview. This is simply not 
acceptable.
    The long delay in processing visas is the result of efforts 
to protect our national security. But, in fact, it can have the 
opposite effect. In the long run, our security is enhanced--not 
diminished--by the exchange of people and ideas.
    There are also economic consequences to the delays in 
visas. In my district in Los Angeles, both the entertainment 
and technology industries rely on the inflow of ideas from 
overseas to ensure that we remain at the forefront of 
innovation and competitiveness. Unfortunately, as we will hear 
from our witnesses today, new security requirements that 
Congress mandated after September 11th have created a backlog 
in visa processing that is hindering the timely exchange of 
ideas and commerce through cultural events, education, and 
trade.
    Today we will hear from the State Department about why it 
is taking so long to reduce the backlog of visa applications. 
And we will start the process of considering whether there are 
steps Congress should take to streamline the application and 
interview process.
    I appreciate the appearance of our special guest, Yo-Yo Ma, 
who will testify about the effect of the visa delays on the 
performing arts, and our other witnesses, who will testify 
about the impact on business and technology innovation.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Henry A. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T7512.004
    
    [GRAPHIC] [TIFF OMITTED] T7512.005
    
    [GRAPHIC] [TIFF OMITTED] T7512.006
    
    Chairman Tom Davis. Thank you very much.
    Members will have 7 days to submit opening statements for 
the record. Any Members--Mr. Porter, do you want to make a 
statement?
    Mr. Porter. Yes, thank you, Mr. Chairman. I appreciate you 
having the hearing today and for our experts that are going to 
be testifying.
    I come from the great State of Nevada, and it is a 
community that bases its whole economy or the bulk of its 
economy upon tourism and visitors, and I understand that since 
September 11th we had to endure a lot of changes, nationally 
and internationally, in how we handle travelers, how we handle 
visas, how we handle immigration. As we have that debate on the 
Hill as we speak, immigration creates additional challenges.
    But I understand it is a balancing act. We want to make 
sure that we have the securest borders in the world. We want to 
make sure our communities are safe. We also need to find a way 
to find a balance.
    As I talk to our folks in Nevada, where we have 40-some 
million visitors a year--a good share of those, probably close 
to 10 to 12 million are coming internationally--we want to make 
sure that if there is anything we can do as a community, we can 
help support finding a way to have visas approved faster. We 
want to make sure that the tourism base can help build our 
economy.
    And tourism, believe it or not, is one, two, and three in 
every economy in the United States of America. In every State, 
it is the top one, two, and three in generating revenues. So we 
want to make sure that when we look at the visas we find a way 
to help streamline. I know that is what you are trying to do 
today.
    But as I talk to some of our folks in Nevada, at McCarran 
Airport and other areas, there seems to be a problem with 
technology. So if there are some things we can do to help with 
technology, apparently some of the transmission lines and the 
capability and the ability to handle information is not 
available into some of our communities, purely from the 
technological side.
    So, again, I appreciate the challenge that you have, and I 
know there is a major impact on arts and education and also on 
tourism and the resort and hospitality industry. So today is 
critical. I am here to encourage you and say thank you for what 
you are doing and offer our continued assistance to do what we 
can to make sure in that balance we have the safest and most 
secure borders in the world, but also allow those folks that 
want to be a part of and visit our great country to have access 
as quickly as possible.
    So I thank you very much.
    Chairman Tom Davis. Thank you, Mr. Porter.
    Let me just note, our first panel is a very distinguished 
panel, comprised of the Honorable Tony Edson, who is the Deputy 
Assistant Secretary for Visa Services at the Department of 
State, and Mr. Jess Ford, the Director of International Affairs 
and Trade at the U.S. Government Accountability Office, who 
also happen to be constituents of mine in northern Virginia, 
which makes them even more distinguished. [Laughter.]
    It is our policy that all witnesses be sworn before they 
testify, so if you would just rise and raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you.

 STATEMENTS OF TONY EDSON, DEPUTY ASSISTANT SECRETARY FOR VISA 
SERVICES, U.S. DEPARTMENT OF STATE; AND JESS T. FORD, DIRECTOR, 
INTERNATIONAL AFFAIRS AND TRADE, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

                    STATEMENT OF TONY EDSON

    Mr. Edson. Chairman Davis, distinguished Members, I 
appreciate this opportunity to discuss the efforts of the 
Department of State to balance border security objectives with 
our commitment to maintaining the openness of the United States 
to international visitors.
    In the immediate aftermath of the attacks of September 
11th, the U.S. Government moved quickly to shore up our 
Nation's border security and reassure American citizens and 
international visitors alike that our Nation was safe and 
secure. After conducting a top-to-bottom review of the visa 
process, we still work ceaselessly to make sure that we have in 
place as strong a shield as possible against those who do us 
harm.
    It is our fundamental commitment to balancing our security 
needs with the openness of the United States that we strive to 
maintain. The Department of State faces a great challenge, 
however, in accommodating a mounting demand for visas while 
safeguarding our Nation's borders. The cases of India and 
China, in particular, highlight the special challenges posed by 
the enormous growth in workload for the Department's consular 
operations in those countries, as well as the unique strategic 
and economic opportunities offered to the United States by this 
increased visa demand.
    Few relationships are more important to the United States 
than those with India and China. With educated, dynamic 
populations, growing economic power, and enormous strategic 
importance, both India and China are emerging as confident and 
assertive global and regional forces that increasingly perceive 
the United States as a partner in securing peace and stability 
in Asia.
    As a result, people-to-people links between our respective 
countries are growing at an exponential rate, through business, 
tourism, and academic exchange. The links also include the flow 
of immigrants to the United States. India, for example, is the 
United States' second biggest source of legal immigration and 
naturalization after Mexico.
    The Department of State is committed to ensuring that the 
visa application process, or perceptions of it, do not serve as 
impediments to legitimate travel to the United States. Our 
consular officers at 211 visa processing posts worldwide are 
dedicated to this goal. In order to adjudicate over 7 million 
visas annually, we have augmented the resources dedicated to 
processing visas, creating more than 515 consular positions 
since September 2001. The Department has enhanced the training 
of consular officers overseas in interviewing techniques and 
counterterrorism while continuing to also emphasize the need 
for efficiency and facilitation of travel for legitimate 
travelers.
    We have invested heavily in automating the system for 
transmitting and receiving interagency clearances, with results 
that are incontrovertible. Now, once they are interviewed, 97 
percent of all visa applicants around the world who are found 
qualified to receive visas get them within 1 or 2 days. For the 
2.5 percent of applicants who, for national security reasons, 
are subject to additional screening, we have streamlined the 
process so that this small percentage of the overall number can 
still expect an answer promptly and predictably.
    We are encouraged by the rise in non-immigrant visa 
applications as well as reports of steady increases in visitors 
to the United States under the Visa Waiver Program over the 
last year and hope that these developments signal a resurgence 
in international travel to this country.
    The Bureau of Consular Affairs is committed to continuing 
to employ all means at our disposal, especially our leading-
edge technology, to further improve the efficiency of visa 
processing without sacrificing national security. However, 
there are very real constraints, both legal and practical, on 
consular operations. In the post-September 11th era, Consular 
Affairs operates under a new set of legal and policy mandates 
legitimately designed to enhance national security in the visa 
possible. It is clear to us that improved management practices 
and incremental resource enhancements will not be sufficient to 
keep up with future demand for visas.
    Accordingly, in addition to the near- and mid-term changes 
that the Department of State can accomplish internally, or in 
coordination with DHS and our other agency partners, we are 
looking further into the future. We recently conducted a 
strategic planning exercise we call the ``Futures Study'' to 
better prepare for visa demand over the next 10 years. The 
Bureau of Consular Affairs contracted a private firm to conduct 
a sophisticated analysis of non-immigrant visa demand 
initiators, or ``drivers,'' and to apply the results of that 
analysis to projected demographic, commercial, economic, and 
political trends worldwide over this next decade. We are now 
using that study to make decisions about next steps in the visa 
process.
    Mr. Chairman, members of the committee, I thank you again 
for inviting me to participate in this hearing and explain the 
Department's commitment to maintaining both Secure Borders and 
Open Doors. The Department's plans to achieve this balance are 
informed by our absolute commitment to supporting our important 
bilateral relationships and legitimate travel from around the 
world.
    [The prepared statement of Mr. Edson follows:]

    [GRAPHIC] [TIFF OMITTED] T7512.007
    
    [GRAPHIC] [TIFF OMITTED] T7512.008
    
    [GRAPHIC] [TIFF OMITTED] T7512.009
    
    [GRAPHIC] [TIFF OMITTED] T7512.010
    
    [GRAPHIC] [TIFF OMITTED] T7512.011
    
    [GRAPHIC] [TIFF OMITTED] T7512.012
    
    [GRAPHIC] [TIFF OMITTED] T7512.013
    
    [GRAPHIC] [TIFF OMITTED] T7512.014
    
    [GRAPHIC] [TIFF OMITTED] T7512.015
    
    Chairman Tom Davis. Thank you very much.
    Mr. Ford.

                     STATEMENT OF JESS FORD

    Mr. Ford. Mr. Chairman, members of the committee, I am 
pleased to be here today to discuss GAO's observations on 
delays in the non-immigrant visa process. In deciding to 
approve or deny a visa application, the Department of State's 
consular officers at 211 visa-issuing posts overseas are on the 
front line of defense in protecting the United States against 
potential terrorists and others whose entry would likely be 
harmful to U.S. national security. But consular officials must 
balance this security responsibility against the need to 
facilitate legitimate travel. Congress, State, and the 
Department of Homeland Security have initiated a series of 
changes since the September 11th attacks to enhance border 
security policies and procedures. These changes have added to 
the complexity of consular officers' workload. They have also, 
in turn, contributed to delays facing foreign citizens at some 
posts who are seeking visas for travel to the United States. 
For example, in February 2004, we reported that applicants that 
faced delays when scheduling appointments for visa interviews 
occurred in both China and in India.
    Although wait times in China have improved in recent 
months, applicants in India continue to face long delays. 
Moreover, worldwide, nine posts reported maximum wait times of 
90 days or more in February 2006. In light of the increased 
workload per visa applicant due to additional border security 
requirements, we recommended that the State Department reassess 
its overall staffing requirements.
    Since September 11, 2001, applicants have faced extensive 
wait times for visas at some posts. According to consular 
officials, posts that consistently have wait times in excess of 
30 days or longer are considered to be a management problem. 
State's data show that between September 2005 and February 
2006, 97 posts reported maximum wait times in excess of 30 
days. At 20 posts, the reported wait times were in excess of 30 
days for the entire 6-month period. Further, in February 2006, 
nine posts reported wait times in excess of 90 days. In 
Chennai, India, applicants applying for visas faced an average 
reported wait time during this 6-month period of 126 days.
    Several factors have contributed to delays for visa 
interview appointments at some consular posts. New policies and 
procedures implemented since the September 11th attacks have 
strengthened the security of the visa process. However, these 
new requirements have increased consular workload and 
exacerbated delays. For example, consular officers are now 
required to interview virtually all visa applicants, and some 
applicants face additional delays due to security checks.
    Additional demand for visas is another factor affecting 
delays. This is especially true for countries with significant 
economic growth, such as India and China.
    Inadequate embassy facilities at some posts also limit the 
number of applicants that can be processed each day. Several 
posts reported problems with work space, waiting areas, 
inadequate numbers of security guards and security devices to 
handle the flow of applicants. For example, our embassy in 
Paris, France, does not have enough adjudication windows to 
handle current demand. The State Department has not had 
adequate numbers of consular staff to meet visa demand at some 
of its posts. We reported that as of September 30, 2005, 26 
percent of mid-level supervisory consular positions were either 
vacant or staffed by junior officers. Since 2002, we have 
recommended that the State Department perform a fundamental 
reassessment of staffing requirements for visa operations in 
light of its likely increase in workload.
    In September 2005, we again recommended that the State 
Department conduct a worldwide comprehensive assessment of its 
staffing requirements. While State has increased the hiring of 
consular officials, we continue to see a need for such an 
assessment to ensure that sufficient staff with the necessary 
skills are at the key posts in order to alleviate problems with 
processing delays. Staffing needs should be based on clear 
processing and workload standards and long-term terms.
    State should rigorously and systematically determine 
priority positions that must be filled worldwide based on 
likely demand and develop contingency plans for emerging 
increasing applicant demand. We recommended that the State 
Department report to the Congress on the actions that it has 
taken to reduce these vulnerabilities.
    The visa process presents a balance between facilitating 
legitimate travel and identifying those who might do harm to 
the United States. The State Department, in coordination with 
other agencies, has made substantial improvements in the visa 
process to strengthen it as a national security tool. However, 
given the large responsibility placed on consular officers, 
particularly entry-level officers, it is critical to provide 
consular posts with the resources necessary for them to be 
effective. Extensive delays for visa interview appointments 
point to the need for State to perform a rigorous assessment of 
staffing requirements to achieve its goal of having the right 
people with the right skills in the right places.
    Mr. Chairman, this concludes my statement. I would be happy 
to answer any questions.
    [The prepared statement of Mr. Ford follows:]

    [GRAPHIC] [TIFF OMITTED] T7512.016
    
    [GRAPHIC] [TIFF OMITTED] T7512.017
    
    [GRAPHIC] [TIFF OMITTED] T7512.018
    
    [GRAPHIC] [TIFF OMITTED] T7512.019
    
    [GRAPHIC] [TIFF OMITTED] T7512.020
    
    [GRAPHIC] [TIFF OMITTED] T7512.021
    
    [GRAPHIC] [TIFF OMITTED] T7512.022
    
    [GRAPHIC] [TIFF OMITTED] T7512.023
    
    [GRAPHIC] [TIFF OMITTED] T7512.024
    
    [GRAPHIC] [TIFF OMITTED] T7512.025
    
    [GRAPHIC] [TIFF OMITTED] T7512.026
    
    [GRAPHIC] [TIFF OMITTED] T7512.027
    
    [GRAPHIC] [TIFF OMITTED] T7512.028
    
    [GRAPHIC] [TIFF OMITTED] T7512.029
    
    [GRAPHIC] [TIFF OMITTED] T7512.030
    
    [GRAPHIC] [TIFF OMITTED] T7512.031
    
    [GRAPHIC] [TIFF OMITTED] T7512.032
    
    [GRAPHIC] [TIFF OMITTED] T7512.033
    
    [GRAPHIC] [TIFF OMITTED] T7512.034
    
    Chairman Tom Davis. Thank you very much.
    Mr. Edson, let me start with you. One of the challenges the 
State Department faces is putting enough consular employees in 
its interview windows to cope with the sheer volume of 
applications. I have seen that as we go abroad. GAO has 
recommended a review of the consular affairs staffing plan, a 
recommendation which State does not concur with, as I 
understand it. GAO reports that in April 2005, it found that 26 
percent of mid-level positions were vacant or filled by entry-
level employees. It also reports that State's current 
assignment process does not guarantee that positions in 
hardship posts, many of which have some of the worst processing 
delays, will be filled because it allows employees to choose 
from among available job openings.
    How do you justify this policy? And how can your staffing 
plan be adequate when busy consular posts like Seoul, South 
Korea, experience little or no wait times for visa interviews 
while other posts, particularly in India, currently experience 
wait times in excess of 3 months?
    Mr. Edson. Thank you. The----
    Chairman Tom Davis. And I have a followup.
    Mr. Edson. All at once, too. [Laughter.]
    We have worked very closely with GAO over the past several 
years over a lot of these studies, and I think our differences 
on the staffing plan are perhaps more semantic than anything 
else. We have an ongoing process to review staffing at our 
consular sections overseas. That process resulted in the 515 
additional positions we have created in the past 5 years, and 
plans into the future.
    We are particularly concerned that the volumes that we are 
reaching in the visa world are not something that we can 
sustain with the traditional staffing model. Hiring entry-level 
officers into the foreign service and assigning them overseas 
to do consular work on their first couple of assignments and 
then moving them up into the organization, that results in a 
pyramid that is just way too wide at the base given the level 
of demand now. We are working on a number of alternative 
staffing models that we hope will give us flexibility to deal 
with that non-immigrant visa demand into the future.
    The specific question about differences in posts and the 
comparison of, for example, Chennai and Seoul, a number of 
factors contribute to those kinds of differences in wait times. 
The physical plant in Seoul, in particular, is much more 
conducive to a regular flow, a linear flow of applicants 
through the consular section. The level of fraud in Korea now 
is much lower than the level of fraud in India.
    Chairman Tom Davis. You get a lot of repeats in Korea, too?
    Mr. Edson. We get a lot of repeat travelers. Yes, we get a 
lot of repeat business travel to the United States out of 
Korea, whereas, in India, an awful lot of the work in Chennai 
is the H and L temporary worker visas, which are a little more 
time-consuming to adjudicate, in any event. So there are 
differences there.
    But we know that the wait times in Chennai are unacceptable 
and are working through a number of ways, including physical 
plant improvements, process improvements, the President's 
announcement of a new consulate in the works for Hyderabad, and 
staffing, to do what we can to drive down that wait time.
    Chairman Tom Davis. Do you have enough flexibility in the 
current law to cope with that? Or do you think you need more 
flexibility? Or is that outside your charge here today?
    Mr. Edson. In terms of personnel or in general?
    Chairman Tom Davis. Legal flexibility, just legal 
flexibility to allow you the personnel flexibility you need to 
experiment.
    Mr. Edson. That is probably beyond--I could take the 
question. We could get back to you on that from the personnel 
side.
    Chairman Tom Davis. All right. The American Foreign Service 
Association has recommended that Congress amend the Foreign 
Service Act of 1980 to lift the dual compensation cap on 
retired Foreign Service officers to give States more 
flexibility in using these experienced retirees to fulfill a 
seasonal or a stop-gap role in processing visas. As you know, 
this committee has oversight of Federal Civil Service policy, 
and we have granted this authority to other agencies in the 
past. In fact, as we see some of the brain drain coming down, 
we have been a little more permissive on this, I think, than 
some of our predecessors.
    Do you think more flexibility in hiring retirees would aid 
in reducing backlogs and in providing guidance to junior 
officers?
    Mr. Edson. Oh, yes. As you may be aware, when we hire 
retirees--and we do quite a bit to handle staffing gaps and 
other special project needs--we are faced with two caps. There 
is a limit on the number of hours they can work per year, and 
there is a salary cap in addition. Since they are hired as 
Civil Service employees, they get cost-of-living adjustments 
every year, and what, in effect, happens is they hit that cap 
on salary more quickly each year that they work, and thus as 
they get more experienced, we are able to use them less 
efficiently.
    Chairman Tom Davis. OK. Mr. Ford, I want to mention for the 
record we will be asking GAO to conduct a followup review 
focusing specifically on wait times in India.
    In your prior reports and again in your testimony today, 
you have recommended a thorough review of consular staffing 
procedures. What would GAO expect such a review to look like? 
Could State address staffing shortfalls by hiring additional 
Foreign Service national employees and start conducting 
interviews 5 days a week instead of 4 days a week, for example?
    Mr. Ford. Yes, you know, we did not prescribe exactly how 
the State Department should go about such a study, but I think 
there are certain elements that we would like to see in such a 
study. I think, first of all, would be the setting of some sort 
of performance standard for what an expected applicant wait 
time might be.
    We mentioned in our report in the fall of last year that 
the State Department has an informal standard that anything 
over 30 days would be considered to be a management issue that 
they would have to come to grips with. So we think the 
assessment should establish a standard and that workloads 
should then be tied to that standard so that you could then 
judge how many people you would need in any point in time to 
deal with the demand.
    I think that with regard to the issue of operations at each 
post, based on what we have seen, there seems to be different 
practices at different posts. For example, you mentioned 
whether they interview applicants on a 5-day-a-week basis, how 
many hours a day they interview applicants. A lot of that is 
driven, I am sure, by the number of people they have, but I 
think those are practical, day-to-day suggestions that the 
Department should be looking at to try to reduce the wait time.
    We noticed recently when we were in Italy that the embassy 
in Rome had a spike-up in demand and that they basically 
adjusted by increasing the number of days and the number of 
hours that they were processing applicants. So we know that 
those kind of actions would be helpful.
    I think in the long term, the issue has to be looking at 
what forecasted demand is likely to be. I think when you think 
in terms of India and China where we know there is a 
substantial amount of economic growth, the Department needs to 
look forward, as they just mention they have done in a study 
they--we have not seen this study yet, but it is the kind of 
thing that needs to be done. They need to look forward in terms 
of what likely demand is out there so that they can adjust 
their resources accordingly so they don't get in a position 
like they are now in India where they have an extensive set of 
wait times.
    Chairman Tom Davis. OK. Let me ask you, Mr. Edson, in 2004 
we legislated what is essentially a universal, mandatory 
interview requirement for all visa applicants aged 14 to 79. 
Can you explain the effects of this requirement on State 
Department resources? And do you think greater flexibility for 
State in this area would help alleviate these long wait times? 
For example, would it be possible to exempt frequent low-risk 
travelers whose biometrics are already on record with repeated 
interviews?
    Mr. Edson. The requirement to interview all applicants that 
became law in 2004, we had implemented similar processes by 
regulation in 2003. It is an incredibly useful border security 
tool. We find it a very valuable anti-terrorism tool to look 
the applicant in the eye.
    As time goes on, though, and we develop more sophisticated 
screening and risk management tools, we would appreciate, I 
think, the flexibility to use that tool, the tool of the in-
person interview, a little more flexibly. The personal 
interview and the biometric collection process both require the 
physical flow of applicants through our facilities in a way 
that was not true before we implemented those processes, and I 
think that is the biggest single impact of post-September 11th 
changes on consular operations and on these wait times that we 
are looking at, is the need to deal with physical appearance in 
so many cases.
    Chairman Tom Davis. OK. Thank you very much.
    Ms. Watson.
    Ms. Watson. I think we have successfully identified the 
problem, but I have not heard yet what steps are being taken 
and why it is taking so long.
    Now, if GAO is involved, is there money proposed in the 
2007 budget that would address increase in consular officers? I 
did note that 515 additional staff have been employed. However, 
it seems like the need is even greater than that. The training 
and the length of time it takes to train has to be taken into 
consideration.
    So can you respond to what you feel will be the cost if we 
are going to make the consular services more effective, more 
timely, so that we could get the intellectuals into the country 
that we need? What would the funding be? What would you propose 
for the funding? And how can you quicken the pace of developing 
this area?
    Let me ask Mr. Edson and then Mr. Ford.
    Mr. Edson. That is a very important question. The response 
to the management challenges that we face in each of these 
posts actually differs, and it makes the question a little 
difficult to answer because there is a combination of staffing 
and facilities in particular. We are constrained in India and 
China by facilities as much as staffing because the windows are 
all full, so adding more bodies does not help without building 
out.
    Ms. Watson. Excuse me. Let me interrupt you. I am aware of 
that, and so maybe you can address--I know they differ. I ran 
an embassy and I had a consular office and I knew what the 
backlog was. But how are we addressing that? Each embassy and 
each consulate is different. How are you addressing that? And 
what would be the cost of addressing it?
    Mr. Edson. I cannot speak to the cost right now, although 
we could take that and respond later. How we are addressing it 
is to look both globally at alternative ways or possibilities 
for ways to do this work that does not rely on the traditional 
model of people, you know, adjudicating officers on the spot in 
physical facilities, and to look at the traditional model, 
which is what we have to work with in the short and medium 
term.
    Each of our posts has been charged with developing 
management plans on the ground. In addition, our staff here in 
the Executive Director's office of the Bureau of Consular 
Affairs and myself and my team, we are looking at things we can 
do with alternative staffing models and better technology, 
different building design, different options that will give us 
the flexibility to move forward.
    Ms. Watson. Mr. Ford.
    Mr. Ford. Yes, with regard to the issue of cost, I cannot 
answer that question. I have not seen any analysis that has 
been done by the State Department with regard to what it would 
take for them to fully staff all of their consular positions, 
particularly at the levels that they need to staff them at.
    They are bringing in a lot of new entry-level employees. 
They have a gap in the mid-level supervisory positions which I 
believe will take years for them to train the new people to do 
the supervisory tasks.
    So how much it is going to cost to bring these people in, 
train them, ensure that they have the adequate language skills 
to fulfill their responsibilities, we have not seen any numbers 
from State as to what that amount might be.
    Ms. Watson. Why isn't that a concern right up to the top 
with the Secretary of State? Immigration in my State is a huge, 
huge issue, and it is spreading across the country. And the 
major concern are people coming over the border illegally. And 
our concern is securing--our country securing our borders. It 
is a top priority. It is a top priority right here in Congress.
    What I am hearing is that it is going to take years and we 
are looking at, we are assessing. Why is it not a top priority? 
Why is it there could not be an assessment of what the need 
fiscally would be so that you could get that in the budget as 
we process it at the current time? I would think that with the 
State Department you would have an assessment at hand, and it 
is not good enough to talk about years in the future. We have a 
current problem right now. We have illegals. They are 
estimating the Spanish illegals are up to 11 million. I am sure 
there are another million of others. And these are illegals. 
The people that we are processing to come legally get caught up 
in this.
    And so I do not hear the urgency in what the two of you are 
saying. Yes, Mr. Edson?
    Mr. Edson. It actually is a top priority of the Department. 
I did not mean to make it sound as if it is not urgent. It is 
just that the response is--the problem is a little bit of a 
moving target, and so the response is piecemeal. Looking at 
staffing models is one part of that.
    In India, for example, a new facility in Bombay that we 
hope will open by the end of 2008, a new consulate in 
Hyderabad, which may open in a leased facility in 2008, and 
then in a purpose-built facility by 2012, a new online 
appointment system that our embassy just implemented for the 
whole country earlier this spring--those are all pieces of an 
approach to meeting that workload in India and making sure that 
those folks, that contribution to our economy is able to get 
visas and flow through in a smooth way. But those pieces are 
separate but related project plans that we keep working on as 
we move forward.
    The economy in India has shifted rather dramatically in the 
past couple of years. In 2002, we had 32 consular officers 
there, and they were meeting the demand with almost no wait. 
Today we have 57 consular officers there, almost doubling the 
number, and we have these waits. But partly that is a good-news 
story from the back side, if you will, because the wait is 
driven by the demand, which is driven by the increased exchange 
with the United States, particularly in the high-tech industry.
    Chairman Tom Davis. Thank you very much.
    Mr. Porter.
    Mr. Porter. Thank you, Mr. Chairman.
    I guess to leave the script for a moment, any suggestions 
for an out-of-the-box approach? Is there some ideas out there 
that we have not been talking about that may work? I understand 
you have your parameters and I know you have things that you 
are supposed to bring up today, but out of the box, are there 
some things that you think would help?
    Mr. Edson. We are trying. Secretary Chertoff and Secretary 
Rice made a commitment in January to a joint vision for working 
together, largely on the IT side, to make sure that we have 
transparency with DHS systems and that we use--we take full 
advantage of that, leverage the power of these biometrics that 
we are collecting now to somehow facilitate travel.
    We have talked a little bit about balancing Secure Borders 
and Open Doors, but I think if we designed our security 
measures properly, most of them should facilitate travel in and 
of themselves. It should not be a balancing act. I think we can 
have it both ways.
    We are committed to experimenting with doing visa 
interviews by digital video connection. That will be a pilot. 
We will do it a couple of different ways this year and see what 
the results are, see if that is a useful model for us. We are 
committed to moving to an online application, not on a paper 
paradigm, but an interactive interview style, collection of 
information from the applicant. That gets us data in advance. 
We are interested in seeing what we can do to streamline the 
interview and visa process at the back end, having collected 
that information so much earlier in the process, instead of 
right on the day of interview. Things like that we are working 
on, and working with DHS on.
    On the immigration side, we would very much like the 
distinction between what U.S. CIS, Citizenship and Immigration 
Services, does and what we do to be invisible to the public. We 
would like the public service seeker to go through both of our 
systems transparently, without realizing they are shifting from 
one agency to the next. And I think that can only help as well.
    Mr. Porter. You mentioned paperless visas. Is that what you 
are talking about now, a paperless visa with the technology?
    Mr. Edson. At one point--more than that. Those things that 
I just discussed are things that I think are probably 
practical, certainly practical, and that we are working hard 
on. The paperless visa, we were intrigued by some of the models 
with countries like Australia, perhaps, that for some 
populations have managed to figure out ways to make the visa 
process fully electronic where no foil or token is actually 
issued at the back end.
    That is a little more difficult in our operating 
environment, but we would like to remain open to the 
possibility of options like that.
    Mr. Porter. You mentioned the different agencies, and I 
know that the State Department and DHS have shared 
responsibility. How is it working, that division? Is it 
problematic? Are there some things that we can do to improve 
upon that?
    Mr. Edson. In the traditional sort of pre-Homeland Security 
Act sense, the way that our immigration process is split 
between INS and the Department of State in the old days, I 
think that works actually quite well, particularly once we get 
the data transparency issues resolved. You have a situation 
where you have some checks and balances. You have a double 
check in most processes that makes it more secure, I believe. 
We just have to focus on the customer service to make sure that 
piece of it has not become less efficient.
    Post-Homeland Security Act, it is working pretty well, the 
new responsibilities that DHS acquired for oversight of visa 
policy, the visa security units overseas. We are still working 
together to clarify the parameters of what each of our agencies 
does so there is not unnecessary overlap. Sometimes the overlap 
is useful and sometimes it isn't. So we are working together. 
It is a new agency, and we still have a need to actually 
provide more guidance to our consular officers in the field 
about what it is that DHS will do and what way they will do it. 
But we are working that out as they gain more experience.
    Mr. Porter. Are there some specific things in this marriage 
that could improve, that would help the visa process?
    Mr. Edson. Not that I can think of offhand. Most of what we 
are talking about here is non-immigrant visitors to the United 
States, and DHS does not play a practical role in most of those 
cases. Petition-based, temporary employment visas to the United 
States, are all petition-based, and those do go through U.S. 
CIS before coming to our consular sections abroad. So in that 
sense, the interview wait time is only a part of the picture. 
The wait time that an applicant has to get an approved petition 
through U.S. CIS is also an important piece of the total 
processing time.
    Mr. Porter. Thank you.
    Chairman Tom Davis. Thank you.
    The gentleman from Maryland?
    Mr. Van Hollen. Thank you, Mr. Chairman, and thank you for 
holding this hearing, and I thank the witnesses. I apologize 
for being late. We have a hearing next door in the Judiciary 
Committee going on right now as well.
    I just wanted to address a couple issues, if I could. 
First, the whole question of student visas and higher 
education. A number of years ago, a lot of us were alarmed to 
see a dramatic drop-off in the number of foreign students 
coming to the United States for a variety of reasons. I think 
they enrich our institutions here in many ways, and they also, 
I think, are helpful to our economy, those that decide to stay 
and seek legal status in this country. I think over time 
evidence has shown they have been a major boom to the economy, 
especially certain sectors of the economy.
    I understand now that has improved somewhat and the numbers 
are back on the upswing. Can you talk a little bit about the 
signals you are sending to our embassies overseas to ensure 
that, consistent with our security needs, they are making 
people understand that we welcome foreign students in our 
universities here?
    Mr. Edson. We are in a somewhat unique position now with 
the Secretary of State's background, and I think I can very 
honestly say that the importance of international education has 
never had a higher profile in the Department than it does now.
    For several years now, we have stressed to our consular 
sections abroad the importance of processing student visas in a 
very timely way so that no student misses the start of school 
because they could not obtain an appointment to get a non-
immigrant visa, student visa.
    We have added some instruction on the importance of 
international education and business to our basic consular 
training course. Most of our posts have been able to do 
outreach to the student community. We have done a lot of 
outreach to the educational community here in the United States 
and tried to emphasize a model overseas that has our commercial 
sections, our public affairs people, and our consular sections 
working with the Fulbright Commission and other organizations 
to reach out to educators and students abroad.
    I think most consular officers now are aware of the high 
stake we put in international education and the enrichment that 
it brings to the United States. And we work regularly to 
correct misconceptions, to make sure that community colleges 
are treated with the same respect that prestigious 4-year 
institutions get, likewise English language training, so that 
the whole spectrum of U.S. education benefits from this 
exchange with the international community.
    Mr. Van Hollen. Could you talk a little bit about an 
incident--I think it was a couple months ago--in southern 
India--I believe it was out of Chennai, but I am not sure--
where a very distinguished Indian scientist applied for a visa 
to come to the United States to attend a symposium, I believe 
somewhere down South. He drove many hours to the consulate. He 
was denied a visa. I do not know what the grounds were. 
Ultimately, I guess New Delhi got involved. It became an 
international incident, really, and I think the gentleman in 
the end sort of said: You know what? You guys just made--this 
was a humiliating experience, forget it, I don't want to come. 
And that kind of signal, I got to tell you, sends a chilling 
message to others around the world.
    Could you talk a little bit about the specifics of that 
case? What were the grounds for the visa denial? I assume that 
because of the rapid reversal from New Delhi, the original 
grounds were not--well, why don't you just--if you could tell 
us what happened there, and what measures have been taken to 
prevent that kind of incident from occurring again.
    Mr. Edson. I cannot speak to the specifics of that 
individual case in this forum, but I can talk about the process 
in Chennai, and it was a fairly standard process that 
individual case was involved in. So I think it will be 
responsive to the question.
    The need for personal appearance, the need for biometric 
collection in the interview, that requirement to appear at one 
of our facilities, particularly in a large country like India, 
has made the visa process more time-consuming, more resource-
intensive for the applicants, as well as for us in the State 
Department. It is not as convenient today as it was several 
years ago in many countries.
    Some applicants object to the need for an appointment, the 
need to wait in line when they come for an appointment, and the 
need for a personal interview. That is part of the picture.
    In addition, in that particular case, and in other cases 
involving scientists in some countries, we do do in a very 
small percentage of cases some additional interagency screening 
back here in Washington for scientists involved in particularly 
sensitive fields. As part of that process, they are asked some 
additional questions at the time of interview, mostly having to 
do with their academic studies and publications.
    We are fairly strong with our consular officers that they 
can never arbitrarily put a case into some sort of status that 
does not exist under the law. So even when we put a case into a 
pending status, when we tell an applicant that we need 
something else from them, would they please just fill out this 
form or send something back to us, we technically are denying 
them under the law, under a section of the law that just says 
we need more stuff before we can make a final decision.
    Most applicants understand our explanation, and that has 
not been an issue. But that is true everywhere around the world 
every day to the tune of thousands of cases, where the 
applicant has not brought in as much as they needed to complete 
the visa application. When they do complete the visa 
application, we are normally able to process is to completion 
relatively quickly, within a matter of a couple of days in the 
case of some Indian scientists.
    Mr. Van Hollen. Mr. Chairman, I see that my time is up. If 
I could just ask, I guess the reluctance to go into the details 
of this specific case has to do with the confidentiality of the 
case. Is that----
    Mr. Edson. Exactly. It is just the confidentiality of visa 
application information under the INA.
    Mr. Van Hollen. I would like to followup, though, because I 
do think we can learn from specific cases, and clearly the 
embassy in New Delhi reversed the decision very quickly, and it 
raises the question about, you know, what was the problem to 
begin with if it could be reversed so quickly just because of 
the sort of public attention that was given to it.
    Anyway, I do not want to take up any more time, but I would 
like to followup. Thank you.
    Chairman Tom Davis. Thank you very much.
    Mr. Duncan.
    Mr. Duncan. Thank you very much, Mr. Chairman.
    I have the University of Tennessee in my district, and a 
few months ago, Senator Lamar Alexander, who at one time was 
president of the university and who was our Secretary of 
Education, expressed concern that we were making it, he 
thought, too difficult or too time-consuming for foreign 
students to get into this country, and in some of my travels to 
other countries, I have heard some of the U.S. embassy staffs 
say some of those same things, that they are noticing students 
from other countries going to Great Britain and other countries 
where they might have come to the United States.
    Now, to be totally accurate and honest, I have not heard 
that expressed to me by University of Tennessee officials, and 
there is a large foreign student population there and always 
has been, or has been for many, many years. Do you think that 
these visa problems or the increased security are causing 
foreign students to go to other countries instead of the United 
States? And do you think it is causing or having an effect on 
academic institutions and conferences and symposiums? Either 
one of you, have you heard that expressed?
    Mr. Edson. It has been expressed, and there was a drop in 
the number of international students coming to the United 
States a couple of years ago. I did not--and I do not have a 
good head for figures, so I am not going to make them up. We 
could certainly respond on the record, if you wanted, with the 
numbers, but the picture has gotten better in international 
education. The original downturn appears to have been complex--
the causes of that original downturn appear to have been 
complex. Certainly visas could have been a part of it. I am 
positive that the perception of the visa process was a part of 
it. SARS, changes in the educational testing system, the SATs, 
administration overseas, changes in the market--a number of 
those things happened.
    We have talked to foreign governments about increases in 
students in their countries, and some of them saw increases 
that now have leveled off or declined. I think there is no 
question that we are more--American educational institutions 
are facing a more competitive international environment now. 
More students go to Malaysia, for example, for English 
education when they might perhaps have gone to the United 
States before, but it is available cheaply and close at hand. 
Those sorts of things have changed the dynamic.
    Mr. Duncan. All right. Let me ask you a couple other things 
in the brief time that I have. I have a very large population 
in my district from India, and so I noticed that a couple of 
these consulates that have these big delays are in India. Now, 
you said one of the problems was that they have more H1-B visa 
applications. How much longer does it take to fill out one of 
those H1-B applications as compared to just an ordinary visa? 
And those consulates where you say it is a management problem, 
are they putting out a lot fewer applications per worker or 
taking--I mean, what is the problem, as best as you can 
determine?
    Mr. Edson. India poses a unique sort of situation for us 
because that demand spiked up so quickly. I do not have the 
number I was going to share with you, but the economy has been 
growing by about 8 percent per year, and with that, the high-
tech sector in particular has had a dramatic increase in the 
number of applicants to the United States.
    Our operations in India are actually among our most 
efficient in the world. What we have there is a case where 
demand just outstrips the physical plant more quickly than we 
could respond to it.
    H1-B processing, the temporary workers, is more time-
consuming, not because of the forms that are required. They do 
have to file--the employer files a petition with DHS here in 
the United States. That takes more time. But the judgments, the 
questions that our consular officers are having to ask are more 
complex. They have to go into is the applicant really qualified 
for the particular high-tech job that they are going to and 
will they be directly employed in it or benched to be loaned 
out in a body shop type situation that is beyond what the law 
specifically envisioned.
    Mr. Duncan. In regard to the number of high-tech 
applications from India, we were told by staff that there was a 
decision recently announced to construct a new consulate in 
Hyderabad, but that many in the business community, 
particularly in the high-tech areas, wonder why Bangalore, 
which is called the Silicon Valley of India, why that was not 
chosen. Can you explain the rationale as to why Hyderabad was 
chosen over Bangalore?
    Mr. Edson. Sure. A couple of reasons. Hyderabad is the 
capital of Andhra Pradesh. It is the sixth largest city in 
India, a center of the high-tech industry on its own. Microsoft 
actually has its India headquarters in Hyderabad.
    Bangalore is connected to Chennai by a relatively good 
road. It takes a couple of hours by road. The road connections 
to Chennai out of Hyderabad are much worse, so it is 
correspondingly a little more difficult for applicants in that 
area to get to our visa processing center.
    About 35 percent of the workload in Chennai actually comes 
from the State of Andhra Pradesh and 20 percent from the 
greater Hyderabad area right there. It seemed like a fit on 
balance compared to Bangalore.
    Mr. Duncan. All right. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Shays [presiding]. I thank the gentleman.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Edson, let me ask you this: You were just talking about 
India and the unique problems that you have. You have so many 
people applying, and I think you said the demand is so great, 
but you do not have the physical facilities. Is that right?
    Mr. Edson. Right.
    Mr. Cummings. And personnel?
    Mr. Edson. Correct.
    Mr. Cummings. What do we do with regard to redeployment? 
You know, in most instances, I guess, when you have--and I am 
not just talking about India, but I am talking about your whole 
agency, where you see that there is a tremendous demand in one 
area there, do you have any latitude to redeploy personnel?
    Mr. Edson. Yes. In general, in the consular world, 
resources have followed the demand, the workload. Back in the 
1980's and early 1990's, when countries went into the Visa 
Waiver Program, for example, after the workload stabilized and 
we figured out what it really was going to be in that new base, 
those positions were redeployed to other consular sections.
    One of the things we are seeing right now is, 
unfortunately, most posts are not going backward in workload. 
They are just increases given the increasing connections 
between U.S. companies and U.S. institutions with international 
companies and institutions.
    Mr. Cummings. Do you think that there is a--you know, as I 
was listening to the testimony, I was just wondering. Do you 
think that there is any kind of backlash from other countries 
when they--you know, when it goes the other way? It is one 
thing for folks to come here. It is another thing for our folks 
to go other places. Do we see any repercussions, say, when 
people see that their folks are unable to travel freely, do you 
see anything or would that even be in your line of sight?
    Mr. Edson. We do look for that. It is certainly within the 
rights of other nations to impose, you know, restrictions on 
entry into their countries. Most countries have not retaliated 
in any way, trying to make an issue out of the appointment wait 
times, for example. Even the fingerprinting, very few countries 
initiated fingerprinting just because we did. Some countries 
have programs now to move to fingerprinting as part of the visa 
process, and we have given them technical advice on how we 
implemented such a program. But most countries, I think, have 
been more concerned with the economic benefits of exchanges of 
visitors with the United States and have not slowed down visa 
processing to retaliate for our resource issues.
    Mr. Cummings. A little earlier you talked about the 
staffing problems, and you talked about the physical 
infrastructure. And I was just wondering: Is there a timeline 
to submit this information, that is, the need for certain 
things to the Congress, do you have a timeline for that, you 
know, so that we can see if we cannot help remedy this problem?
    Mr. Edson. In general terms, it goes into the President's 
budget; it goes into the regular budget planning cycle. We are 
trying to reach out further. The capital planning cycle I 
believe is 10 years out for facilities, and we are key players 
in both of those processes in the Department to try to reach 
out to that.
    When demand changes quickly, we have been able in some 
cases to meet it either with permanent staff--and a lot of that 
permanent staff post-September 11th was actually obtained out--
we were able to obtain it much more quickly than the normal 
planning cycle would normally have allowed.
    Mr. Cummings. How did you do that?
    Mr. Edson. I cannot tell you. I think it was a supplemental 
request, but I can take the question--I think it was a 
supplemental.
    We have gone--we do use retired--you know, we re-employ 
annuitants widely. We have used Civil Service employees of the 
Department on excursion tours overseas. We can do both of those 
things pretty quickly. We have expanded the use of contract 
employees for not inherently governmental work in the United 
States in order to free up USG employees that we could then 
shift overseas. Those sorts of things we are able to do fairly 
quickly.
    Mr. Cummings. Well, with regard to infrastructure, I guess 
that is a much more difficult problem.
    Mr. Edson. New plant is a more difficult problem. For 
example, in India--Calcutta, Chennai, and Delhi--we have added 
windows, interview windows, to the existing plant. We can do 
that. We are just, you know, upgrading facilities that we 
already have. That is something we can do fairly quickly, and 
we do do fairly quickly, to the extent that--I mean, we can 
only go from exterior wall to exterior wall, so there is an end 
to how much additional space we can gain that way. But that we 
have done.
    The other new facilities, it is a longer planning cycle. 
Beijing, we hope to open a new embassy in 2008, for example, 
and I think that has been 8 years or so in the making. A new 
facility in Bombay, 2008, and that has also been several years 
in the making.
    Mr. Cummings. Thank you.
    Chairman Tom Davis. Thank you.
    Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman, and I will be brief.
    Mr. Edson, the practice--I was part of the group that 
defended keeping Foreign Service officers doing consular work 
when that was going to be taken away under the reform of 
Homeland Security. But I continue to have sort of the nagging 
problem that it is the starting position. You put your absolute 
freshmen, the day off the boat, into that position, and often 
it is not the shining part of a State Department person's 
career to oversee that.
    Do you have any reforms that you think would help the 
process of both reliability and speed when it comes to meeting 
those requirements of evaluating visas?
    Mr. Edson. Thank you. Thank you for that.
    Mr. Issa. Thank you for saying ``thank you.''
    Mr. Edson. We think that the model has worked for us. The 
real challenge is the volume, the total number of people we 
need at the entry level now. But most consular officers--most 
Foreign Service officers doing a consular tour abroad are 
supervised by experienced managers with the recognition of the 
mid-level gap that we have now that Jess mentioned earlier. 
These are dedicated professional employees who, whether they 
joined the Foreign Service in order to do this or not, do it 
well and do it seriously. They are mostly very efficient at the 
work, concerned about national security as well as travel; if 
anything, more concerned about national security.
    Again, our quandary is dealing with the need for enough 
resources to do the work effectively into the future with the 
sort of demand we are projecting several years out. And so we 
are looking at alternative staffing models that will give us 
the skills and the capability of the professional Foreign 
Service Corps, but with more flexibility to address the volume.
    Mr. Issa. To followup a little bit along the same line, you 
know, we are debating, as we speak practically, significant 
changes in immigration policy, immigration enforcement, but it 
has long been a policy of the State Department to deal with 
countries which have a high no-return rate differently than 
those who have a lower no-return rate, which tends to be purely 
along--almost purely along economic grounds.
    At a time when we have 11 to 20 million illegals in this 
country, 40 percent overstays, essentially no ability to 
reasonably control who is here to the tune of 12 or more 
million people, is it really a prudent policy to discriminate 
based on the no-return rate, when, in fact, you know, we have 
such a loose policy in general? In other words, is there a 
reason to continue trying to run the pumps on the Titanic if--
or let me rephrase that, to patch one hole on the Titanic, 
when, in fact, the pumps have shut off and you have 11 million-
plus illegals in this country?
    Mr. Edson. When you talk about a policy of discrimination 
based on a no-return rate, are you referring to adjudication?
    Mr. Issa. Your consulars actually have a different standard 
for accepting applications wanting to come to the United 
States. I have worked in the Middle East a lot from my work on 
International Relations, and you have countries that are rich 
countries, and they basically get a rubber stamp on their 
visas. They do get quick approvals, where if you are from a 
country with a high no-return rate and you are going to a 
wedding of your brother or sister, the chances are you are 
going to be told no.
    Mr. Edson. I understand what you are getting at. We do not 
discriminate--we do not have different policies in different 
countries. In applying the Immigration and Nationality Act, 
looking at tourists and temporary visitors in particular, 
looking at whether they have a residence abroad they intend to 
return to, that is an easier decision to make if the applicants 
in general have well-paying jobs and established family and 
property abroad than it is in countries where that is not the 
case. And that may be why it appears that it shakes out along 
economic lines because it will. I mean, the rates of fraud, for 
example, tend to be higher in some of the developing economies 
and the rates of non-return in those economies where there are 
fewer opportunities for applicants at home.
    Mr. Issa. Certainly. Mr. Ford, are there studies that you 
could provide this committee about the tens or hundreds of 
billions of dollars in lost economic activity as a result of 
delay in bringing people to this country to meet economic 
needs, particularly when it comes to business deals, specific 
contracts that went to other countries because, to be honest, 
we could not provide visas for people to come here to negotiate 
those and the like. And when I travel abroad I hear it 
constantly. What I want to know is can you quantify it.
    Mr. Ford. I can tell you we have not quantified it. I have 
seen some studies done by the American Chamber of Commerce and 
some other business groups that have raised the issues that you 
have raised, but we in GAO have not looked at that issue, and I 
am not sure it can be quantified. I think that there is lots of 
anecdotal information that we have heard, I guess similar to 
yourself, but I am not aware of any actual scientific studies 
that have been done on this issue.
    Mr. Issa. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much. I think that will 
conclude this panel. I want to thank both of you for taking the 
time to be here, and the committee will now move to our next 
panel. Thank you.
    Chairman Tom Davis. We have a very distinguished second 
panel as we move everyone up here. We have Ms. Sandra Gibson, 
who is the president and the CEO of the Association of 
Performing Arts Presenters. We have Mr. Yo-Yo Ma, the artistic 
director of the Silk Road Project, Inc., who has taken time out 
from his tour. He is performing at the Kennedy Center tonight. 
We have Mr. Dennis J. Slater, who is the president of the 
Association of Equipment Manufacturers. We have Mr. Kevin 
Schofield, the general manager of strategy and communications 
for Microsoft Research. And we have Ms. Elizabeth Dickson, who 
is the advisor in immigration services, Ingersoll-Rand Co., and 
the U.S. Chamber of Commerce.
    Let me thank all of you for taking the time to be here 
today.
    If you could all stand up and just--we always swear 
everybody in before you testify.
    [Witnesses sworn.]
    Chairman Tom Davis. Mr. Ma, we will start with you. Let me 
just give you a personal thanks from me and the committee for 
taking time out. I know you have to leave at noon. You have to 
get back and prepare for this evening. But thank you very much 
for being here. I want to thank all the panelists for being 
here today. It is a very important issue for this country 
economically and has a lot of geopolitical ramifications, too, 
in terms of how we deal with this.
    Please go ahead.
    Thank you very much, Mr. Ma.

   STATEMENTS OF YO-YO MA, ARTISTIC DIRECTOR, THE SILK ROAD 
PROJECT, INC.; SANDRA L. GIBSON, PRESIDENT AND CHIEF EXECUTIVE 
 OFFICER, ASSOCIATION OF PERFORMING ARTS PRESENTERS; DENNIS J. 
  SLATER, PRESIDENT, ASSOCIATION OF EQUIPMENT MANUFACTURERS; 
KEVIN SCHOFIELD, GENERAL MANAGER, STRATEGY AND COMMUNICATIONS, 
    MICROSOFT RESEARCH; AND ELIZABETH C. DICKSON, ADVISOR, 
   IMMIGRATION SERVICES, INGERSOLL-RAND CO., AND CHAIR, U.S. 
          CHAMBER OF COMMERCE IMMIGRATION SUBCOMMITTEE

                     STATEMENT OF YO-YO MA

    Mr. Ma. Mr. Chairman, members of the committee, I'm 
grateful for the opportunity to speak with you today.
    I'm 50 years old and I've been playing the cello for 46 
years and I'm still trying to get it right. Of the last 30 
years of being a professional musician, I've spent the 
equivalent of 20 on the road. Music and travel are constants 
for me. In my mind, they stem from the same fundamental human 
sources: an eagerness to explore new territory and a passion 
for learning. They also both require guides and Ambassadors, if 
you will, to reveal the beauty and meaning of a place or a 
piece of music.
    But while travel and performance are similar, music has one 
crucial advantage. It is eminently accessible. You don't need a 
passport or a plane to visit someplace new. Music provides a 
shortcut, allowing you to be transported thousands of miles 
away and back during the 2-hour span of a concert.
    It is this quality of music that is so powerful, and it is 
the ability to bring this music and these guides, these 
Ambassadors, whether musicians, dancers, or artists, to 
audiences here in the United States that I hope we will always 
support and encourage as a country. And it is on behalf of 
these cultural guides that I'm here today to urge you to 
simplify the visa process.
    My personal experience with the visa process stems from my 
work with the Silk Road Project, an organization I founded in 
1998 to bring musicians from all over the Silk Road region 
together both to perform contemporary and traditional works as 
well as to inspire new compositions.
    I'm proud to say that the organization has been successful. 
We've performed on four continents in venues ranging from the 
Hollywood Bowl to the Washington Mall in cities across the 
Middle East and Central Asia.
    In the ensemble we now have 50 musicians from 15 countries. 
However, the barriers to bringing these musicians, these 
cultural guides to the United States have become 
extraordinarily high. We at the Silk Road Project, along with 
other organizations, like the World Music Institute and the 
many important organizations that Sandra Gibson will be 
mentioning, have found it increasingly difficult to facilitate 
this cultural exchange because of high financial costs, 
uncertain timelines, and countless logistical hurdles.
    Two Iranian musicians, Siamak Aghaei and Siamak Jahangiri, 
with whom we have been playing since 2000, who have visited the 
United States almost 10 times, must wait months before getting 
their visas. With no embassy in Iran, they must fly to Dubai in 
order to sit for an in-person interview and then fly back a 
second time to get the visas. This past year, it required a 
third visit to Dubai, as the printer for the visas was out of 
order and it was unknown when it would be repaired. All told, 
for these two musicians to participate in their ninth United 
States tour with the Silk Road Project, the process cost $5,000 
and lasted 3 months.
    Sometimes the process never gets under way. Both Zola, one 
of the great exponents of the long-song tradition in Mongolia, 
and Wu Tong, the great virtuosic Chinese Sheng player and 
singer, often cannot even get through the gates to U.S. 
embassy. Despite having completed all the paperwork, they are 
frequently shut out because of language barriers or cultural 
differences.
    With fewer of these barriers, our culture has the potential 
to offer so much. Truly American artists, like Duke Ellington 
and George Gershwin, sprang from the intersection of 
international musical styles. In fact, it is worth noting that 
both Ellington and Gershwin's teachers were students of the 
great Czech composer Antonin Dvorak, whose time in the United 
States is a concrete example of cultural exchange. Our cultural 
strength has always derived from our diversity of understanding 
and experience.
    The benefits to a simpler visa process extend beyond the 
cultural progress and revitalization we can expect in the 
future. There's a real desire, even a need, for this cultural 
richness and diversity today. American audiences are thirsty 
for new cultural experiences and are eager to understand the 
inside of these foreign places.
    At first, we at the Silk Road Project were nervous about 
the audience's reaction. We feared we would find people 
uninterested, indifferent, or even hostile to foreign-sounding 
music. I vividly remember going on stage in Dallas with the 
Silk Road Ensemble on October 11, 2001, wondering whether an 
audience would want to hear a program focusing on the music of 
Iran, a country so closely associated by many at the time with 
the attacks 1 month prior.
    Quite the contrary. Audience reaction has been 
overwhelmingly supportive. In Dallas, the audience leapt to its 
feet, spurred on not only by the music, but also by the signal 
the music sent, the overwhelming power of culture to connect 
individuals and to create trust.
    I'm proud to say that all of the American performances by 
the Silk Road Ensemble have been sold out, whether in large 
cities like New York, Washington, DC, and Los Angeles, or in 
smaller cities, like Sarasota, FL, Flint, MI, or Columbus, GA. 
Rather than rejecting unfamiliar musical instruments and 
sounds, people have demanded and embraced them.
    Perhaps this is a reflection of our global era in which no 
one grows up listening to just one kind of music. Perhaps it is 
also a reflection of the growing cultural awareness and 
curiosity of the American audience.
    While very few Americans have the opportunity to travel to 
rural India and even fewer to rural Kyrgyzstan, the arts allow 
everyone to catch a glimpse into these other worlds through 
their music, their dance, and their art. Encouraging artists 
and institutions to foster these artistic exchanges--bringing 
foreign musicians to this country and sending our performers to 
visit them--is crucial. But the high financial cost and the 
lengthy timeline make these programs difficult to execute and 
to maintain.
    Trust is fundamentally at the center of this discussion. Do 
we trust people to come into this country to do good, or not? 
In any musical ensemble, you have to trust your fellow musician 
in order to succeed in creating something beautiful on stage. 
The musicians in the Silk Road Ensemble have earned the trust 
of each other and of audiences around the world. I sincerely 
hope that they and the many other musicians from foreign 
countries will be able to earn your trust so they can continue 
to be Ambassadors from their cultures and countries and so they 
can carry our message of trust and open exchange back to theirs 
as well.
    Thank you.
    [The prepared statement of Mr. Ma follows:]

    [GRAPHIC] [TIFF OMITTED] T7512.035
    
    [GRAPHIC] [TIFF OMITTED] T7512.036
    
    [GRAPHIC] [TIFF OMITTED] T7512.037
    
    Chairman Tom Davis. Thank you very much.
    Ms. Gibson.

                   STATEMENT OF SANDRA GIBSON

    Ms. Gibson. Thank you, Chairman Davis, distinguished 
members of the committee, for having me testify today on this 
important issue. I'm pleased to be joined here by Yo-Yo Ma.
    I want to focus my presentation--you've got the full 
testimony--on the negative impact of visa processing delays on 
the performing arts field and industry in the United States. I 
have some examples of the problems we continue to experience. 
We'll talk about the importance of cultural exchange and offer 
a handful of recommendations to improve the overall processing 
system.
    What we're talking about is sustaining a vibrant global 
marketplace for a large core of what are small or mid-size arts 
businesses, nonprofit and for-profit. It's the intersection of 
culture and commerce and the critical need for access and 
exchange.
    Arts Presenters is the national service organization for 
the performing arts presenting and touring field, which has 
over 7,000 organizations in the United States with a collective 
annual earned and contributed income of $8.5 billion. The 
presenting field reaches over 300 million people, audience-
goers, every year. We're honored to be a representative of a 
larger performing arts community and coalition. I'm joined in 
the gallery by many of my colleagues from the American Arts 
Alliance and the Performing Arts Visa Taskforce, both of which 
have been working on these issues for 5 years, since before 
September 11th.
    And the organizations can relate to other business 
interests here today. We are an industry powered by small 
businesses. Almost two-thirds of the organizations in our 
association have budgets less than $500,000 and are active 
globally.
    Next slide. Arts Presenters' vision statement best 
captures--next slide, please--why improving the process is so 
critical to our industry.
    Next slide. All people should experience the transformative 
power of live performance. Art and ideas should circulate 
vigorously and freely. Artists should play a leading role in 
civic affairs and global dialog. People of all cultures must 
interact and affirm themselves through the arts and through 
culture.
    Next slide. In 2002, nearly 75 percent of our industry was 
presenting foreign artists in the United States. By 2005, that 
number had dropped to 60 percent. These statistics signal an 
ongoing problem with the process and a chilling effect on our 
performing arts industry.
    As you know artists from the U.S. travel abroad, share our 
artistic and cultural heritage, exchange ideas, expressions, 
and experience other cultures in their cultural context. In 
turn, artists from abroad come to the United States to share 
their experiences, their traditions, and heritage. These are 
the artists who are the leading thinkers, change agents in 
their societies and exactly the individuals, the creative 
connectors we want to visit our country, perform on our stages, 
teach our young people, experiencing America and taking back 
those experiences to their homeland.
    The reciprocal exchanges of artists creates a core of 
cultural Ambassadors in the United States, so fundamental to 
our diplomatic mission. Secretary of State Rice has committed 
to increasing exchanges of this kind with the rest of the world 
as key to what she is calling transformational diplomacy 
platforms. Under Secretary of State Karen Hughes has voiced 
that these types of exchanges are considered the single most 
successful public diplomacy in the past 50 years.
    So the industry plays a vital role in global exchange and 
therefore in our foreign affairs, public diplomacy, mission and 
goals. It's time we establish a visa process that strikes the 
balance between secure borders and a United States that fosters 
exchange and supports cultural commerce.
    The presenting and touring performing arts industry is 
time-specific. These activities revolve around a practice where 
you secure performances 6 months to 3 years in advance, 
particularly if you're talking about artists from abroad. Once 
a performance is engaged or booked, advance marketing, 
promotions, ticket sales are initiated, significant costs are 
incurred and fronted. Organizations, many small businesses, are 
making the economic investment, taking the risk for the 
enjoyment and experience of our citizens.
    The vagaries of the visa process regularly put the 
performances in our industry in jeopardy, facing unpredictable 
economic losses from delays and, in the worst cases, complete 
cancellation of performances and tours.
    We have three principal concerns with the visa process: 
State Department and consulate delays. Last week, the media 
reported that the Halle Orchestra from Manchester, England, 
canceled its two-concert American tour, including playing 
Lincoln Center in New York, due in large part to U.S. State 
Department visa policy. Each member of the 100-person orchestra 
and staff was asked to travel to the U.S. embassy in London for 
his or her interviews at an additional expense of nearly 
$80,000 and 2 days of extra delay, and their time.
    For USCIS, we've experienced significant delays for 
nonimmigrant O and P visas. I have examples of those, but I 
won't cite them.
    And finally, oversight by DHS and the process. There's a 
lack of oversight and coordination of the process by Department 
of Homeland Security. CIS is not functioning well. Processing 
center policies and procedures are not uniformly executed. And 
we've heard even that processing applications is not happening 
electronically. DHS must exercise leadership in overseeing a 
more complicated, changing processing system. There's a need 
for inter-agency coordination and management as well as 
consistent communication of changes.
    Now, we've met with all three agencies and officials over 
the past 5 years, with varying success, and certainly found the 
Department of State the most receptive to our needs. As an 
example, last year Deputy Assistant Secretary of State for Visa 
Services, Janice Jacobs, sent much-needed interview guidance 
memos to all posts around the world. We understand that Deputy 
Assistant Secretary for Consular Affairs, Tony Edson, is 
considering reissuing these memos shortly, and this needs to 
happen.
    Next slide. Our recommendation.
    For State Department, encourage a frequent traveler status 
for nonimmigrant visas in the artist O and P visa category. We 
ask for adherence to and a practice of the policy of 
flexibility regarding location of consular interviews.
    With USCIS: Treat any arts-related O and P visa petition 
that fails to be adjudicated within the legal 30 days as a 
premium processing case, free of the additional premium fee. 
This would return our processing times back to a more 
manageable 45 days maximum timeframe.
    And for DHS: Just manage the entire system. Make 
assessments along the way and better improve the system along 
the way. Exercise more leadership over the process.
    Additionally, we request that you and your colleagues on 
the committee designate more funds to these agencies to 
specifically improve visa processing, interviewing, and the 
approval system, as well as to assure more leadership over the 
process.
    Next slide. As a field, we don't come to the table just 
asking for reform and relief without doing something ourselves. 
We've invested significant time and dollars to do our part by 
training and informing our entire industry, keeping them 
apprised of changes, increasing their capacity to complete the 
visa petition process to bring artists to the United States. 
The Web site artistsfromabroad.org was inaugurated 3 years ago 
with the American Symphony Orchestra League and provides the 
practices, comprehensive processes, the step-by-step way to get 
successfully through the visa system. We conduct seminars and 
surveys regularly to assess issues and concerns.
    So our industry and the wider business community have 
complied with the important administrative and security 
changes. We've paid the additional costs associated with 
obtaining a visa, with the ongoing promise of change from each 
of these agencies.
    As we approach the 5th anniversary of September 11th, we 
have to see more movement on changes requested and overall 
improvement. The system is not working for us at this time, and 
it really is a time when we should be ramping up cultural 
exchange and commerce. So we welcome the committee's 
involvement in making these changes happen.
    And final slide. You can find out more at our Web site.
    I'm happy to answer committee questions and provide more 
examples of the specific problems and issues I've cited.
    Thank you very much.
    [The prepared statement of Ms. Gibson follows:]

    [GRAPHIC] [TIFF OMITTED] T7512.038
    
    [GRAPHIC] [TIFF OMITTED] T7512.039
    
    [GRAPHIC] [TIFF OMITTED] T7512.040
    
    [GRAPHIC] [TIFF OMITTED] T7512.041
    
    [GRAPHIC] [TIFF OMITTED] T7512.042
    
    [GRAPHIC] [TIFF OMITTED] T7512.043
    
    [GRAPHIC] [TIFF OMITTED] T7512.044
    
    [GRAPHIC] [TIFF OMITTED] T7512.045
    
    [GRAPHIC] [TIFF OMITTED] T7512.046
    
    [GRAPHIC] [TIFF OMITTED] T7512.047
    
    [GRAPHIC] [TIFF OMITTED] T7512.048
    
    [GRAPHIC] [TIFF OMITTED] T7512.049
    
    [GRAPHIC] [TIFF OMITTED] T7512.050
    
    [GRAPHIC] [TIFF OMITTED] T7512.051
    
    Chairman Tom Davis. Thank you very much.
    Mr. Slater.

                   STATEMENT OF DENNIS SLATER

    Mr. Slater. Chairman Davis, members of the committee, 
thanks for the opportunity to testify today. I'm the president 
of the Association of Equipment Manufacturers and the past 
chairman of the International Association of Exhibition 
Management. AEM is a trade association for the manufacturers of 
off-road equipment, products and services used worldwide in the 
construction, agricultural, mining, forestry, and utilities 
fields.
    My testimony today focuses on two major trade shows we 
produce. These are CONEXPO-CON/AGG, the largest trade show in 
the Western hemisphere for the construction industry, held in 
Las Vegas, and the International Construction Utility Equipment 
Expo [ICUEE], the leading utility construction expo held in 
Louisville.
    Our trade shows bring thousands of international buyers and 
sellers together to see and purchase millions of dollars in 
equipment. CONEXPO-CON/AGG attracted more than 124,000 
attendees to Las Vegas, including 21,000 international 
visitors. We make an extra effort to bring international buyers 
to CONEXPO-CON/AGG, particularly from China and India, two of 
our largest markets. We could be much more successful if 
qualified international business prospects didn't face problems 
obtaining visas.
    As an example, a 40-member delegation from India had nearly 
half of its members refused visas, while 12 delegates canceled 
their visa appointments due to difficulties. Most said that 
they would attend trade shows in Europe and Asia instead of our 
U.S. events. In a letter from the Indian delegation leader, he 
wrote that he was advising his delegates not to attend any 
trade shows in the United States in the future. He also 
expressed disappointment with the treatment the delegates 
received at the U.S. consulate. He commented that the U.S. 
embassy does not want to promote business between the two 
countries.
    Our staff in Milwaukee and our branch office in Beijing 
dedicate a considerable effort assisting visa applicants in 
China. We had 796 applicants work through our offices to obtain 
visas for CONEXPO-CON/AGG; 161, or 20 percent, were denied 
visas. And additional 84 applicants decided not to attend due 
to the visa process. The applicants that did do the process 
experienced long wait times between application and interview 
and found the interviews to be perfunctory at best.
    Our Indian and Chinese applicants are not alone in these 
experiences. A delegation from Ecuador arrived at their 
interviews, at significant personal expense, with invitation 
letters, brochures, financial statements, only to be told the 
consulate didn't know anything about our event and didn't see a 
need for the attendees to come to CONEXPO-CON/AGG--this, 
despite the fact that CONEXPO-CON/AGG is listed on the State 
Department's Internet data base of key U.S. trade events and 
has the support of the U.S. Department of Commerce as a 
participant in the International Buyer Program. Although there 
were personal letters from AEM and intervention by DOC, the 
appeal was denied.
    In a delegation of more than 40 contractors Romania only 14 
received visas. The others were rudely told that they didn't 
expect them to return to Romania if they were granted visas.
    At our ICUEE show, a delegation organizer from India 
complained that their visa applicants had to wait a minimum of 
3 months for an interview appointment. Applicants reported that 
they were rarely asked more than a handful of questions and 
that consular officers appeared poorly prepared for the 
interviews despite the time and expense of the applicants.
    Once again, many of these applicants will attend 
competitors' shows in Europe and Asia and will never again make 
an effort to attend U.S. trade shows.
    AEM has also been forced to allocate considerable resources 
on the application process and away from our promotion efforts 
to bring international customers to the United States.
    We would like to offer some suggestions to improve the 
process. First, the State Department should allocate more staff 
to high-applicant posts to reduce wait times and provide 
additional training to alleviate charges of rudeness and 
inconsistency. The State Department also should prepare 
applicants more thoroughly for the interviews. State should 
also make reasons for visa refusals more transparent. And the 
posts should differentiate business visa applicants by 
establishing business windows, set times and keep appointments. 
Finally, there should be a streamlined process for business 
applicants who have received temporary business visas in the 
past, for applicants who are regular trade show attendees.
    I thank you for the opportunity to testify and look forward 
to your questions.
    [The prepared statement of Mr. Slater follows:]

    [GRAPHIC] [TIFF OMITTED] T7512.052
    
    [GRAPHIC] [TIFF OMITTED] T7512.053
    
    [GRAPHIC] [TIFF OMITTED] T7512.054
    
    [GRAPHIC] [TIFF OMITTED] T7512.055
    
    [GRAPHIC] [TIFF OMITTED] T7512.056
    
    [GRAPHIC] [TIFF OMITTED] T7512.057
    
    [GRAPHIC] [TIFF OMITTED] T7512.058
    
    [GRAPHIC] [TIFF OMITTED] T7512.059
    
    [GRAPHIC] [TIFF OMITTED] T7512.060
    
    [GRAPHIC] [TIFF OMITTED] T7512.061
    
    [GRAPHIC] [TIFF OMITTED] T7512.062
    
    Chairman Tom Davis. Thank you very much.
    Mr. Schofield.

                  STATEMENT OF KEVIN SCHOFIELD

    Mr. Schofield. Chairman Davis, members of the committee, 
thank you for the chance to testify today.
    America's need for the world's most talented persons has 
never been greater, yet high-skilled emigration to the United 
States is in crisis. The obstacles that face business visitors, 
students, and talented workers seeking to travel to the United 
States pose a direct threat to American competitiveness.
    Microsoft, like many American companies, competes on a 
global stage. As we work to develop world-class software, we 
also need to involve experts from other countries in meetings 
here in the United States. Yet we have suffered severe 
disruptions in recent years from inordinate and unpredictable 
delays and denials of business visitor visas.
    It is also crucial that our universities continue to 
attract and educate the best students from around the world. 
They fuel innovation, creativity, and economic strength. The 
changes that have taken place in the visa process have created 
a disincentive to study in the United States. When we make it 
difficult to study here, other countries gain and we lose.
    Microsoft and other major U.S. employers have also faced 
unprecedented difficulties in bringing the best and most 
accomplished foreign nationals into our workplaces. Visa 
appointment delays, repeat trips to consulates to provide 
additional information, and inappropriate visa denials 
increasingly hamper our efforts to recruit the most talented 
possible work force.
    These are pains I feel on an almost daily basis as I 
coordinate technology transfers and collaboration between 
Microsoft's 500 researchers around the world and its 
development teams. Microsoft, of course, recognizes that 
heightened vigilance in the immigration system is essential to 
protect our national security. But at the same time, we must 
protect the competitiveness of our national economy. But we can 
have both secure borders and a visa process that gives 
innovators the room to succeed.
    Unfortunately, we are nowhere near where we should be. 
Consider Chennai, India. The wait time there for an appointment 
for any type of temporary visa is a staggering 163 days. The 
pace of today's world simply does not provide 5 months of lead 
time to wait for a visa appointment. Chennai is but one 
example, and the difficulties with the visa process are often 
the most pronounced in the very countries that are the most 
critical to the future growth of Microsoft and other major U.S. 
businesses.
    Getting an appointment is only the first challenge in the 
visa application process. Once a person is finally able to 
apply, a whole new set of challenges begins, as I describe in 
my written statement.
    There are many ways to better balance protection and 
prosperity in the visa process. For example, the United States 
should increase dramatically the resources available for visa 
interviews and processing. Streamline the decisionmaking 
process, including requiring the agencies involved in the 
security clearance process to act within a specific timeframe. 
Establish a clear and uniform way to address business 
emergencies, where circumstances do not permit visa 
applications through normal wait times. And alter or eliminate 
the automatic presumption of immigrant intent in Section 214(b) 
of the INA.
    The principal focus of this hearing is on the difficulties 
that surround the process of getting a visa. The larger 
problems we are discussing today stem equally from choices 
about the supply of visas. The supply is nowhere near what is 
needed. Just 3 weeks ago, Bill Gates came to Washington 
expressly to discuss these urgent problems with Members of 
Congress. Indeed, these are Congress's choices about visa 
supply, and Congress can fix them. But let there be no doubt, 
without reform American competitiveness will suffer. Other 
countries will gain from the international talent that U.S. 
employers cannot hire or retain. And it's crystal clear that 
other countries are shaping their immigration policies to 
attract this talent. U.S. employers will be forced to move 
their functions to places where they can find or import the 
highly skilled workers that they need.
    I understand that the Senate is considering immigration 
reform legislation that would provide real relief on these 
issues but that the House immigration bill does not. Congress 
must act to ensure that the Nation maintains both its security 
and its intellectual and economic strength. The ability to 
bring the best and brightest from around the world into this 
country--to conduct business, to study, to join our work 
force--is indispensable. Yet serious obstacles stand in the way 
of that goal, many self-imposed.
    Microsoft appreciates the committee's efforts to eliminate 
these unnecessary obstacles wherever possible. And we stand 
ready to work with you in any way that we can.
    Thank you.
    [The prepared statement of Mr. Schofield follows:]

    [GRAPHIC] [TIFF OMITTED] T7512.063
    
    [GRAPHIC] [TIFF OMITTED] T7512.064
    
    [GRAPHIC] [TIFF OMITTED] T7512.065
    
    [GRAPHIC] [TIFF OMITTED] T7512.066
    
    [GRAPHIC] [TIFF OMITTED] T7512.067
    
    [GRAPHIC] [TIFF OMITTED] T7512.068
    
    [GRAPHIC] [TIFF OMITTED] T7512.069
    
    [GRAPHIC] [TIFF OMITTED] T7512.070
    
    [GRAPHIC] [TIFF OMITTED] T7512.071
    
    [GRAPHIC] [TIFF OMITTED] T7512.072
    
    [GRAPHIC] [TIFF OMITTED] T7512.073
    
    [GRAPHIC] [TIFF OMITTED] T7512.074
    
    [GRAPHIC] [TIFF OMITTED] T7512.104
    
    [GRAPHIC] [TIFF OMITTED] T7512.105
    
    Chairman Tom Davis. Thank you very much.
    Ms. Dickson.

                 STATEMENT OF ELIZABETH DICKSON

    Ms. Dickson. Mr. Chairman, members of the committee, good 
morning. My name is Elizabeth Dickson. I manage the Global 
Immigration Services function for Ingersoll-Rand Co., and 
additionally I chair the Subcommittee on Immigration at the 
U.S. Chamber of Commerce. My testimony today is on behalf of 
both my company and the U.S. Chamber of Commerce.
    I think everybody in this room understands the need for the 
increased security initiatives. But America's trade 
relationships and economic goals depend a great deal on the 
ability of foreign customers to travel to the United States to 
visit our manufacturing operations, to inspect products and 
services they are purchasing, and to negotiate contracts.
    Why is this important to us? It's important because our 
foreign competitors will take business away from us if we do 
not have a streamlined visa processing system that will enable 
our current customers and potential customers to come to visit 
us in the United States.
    American companies such as Ingersoll-Rand are looking for 
promising geographic regions to grow our business. For us, we 
have identified the Asia Pacific and Latin American regions, 
and we have expanded our presence in China, India, and Europe 
over the recent years. Our chairman predicts that in 5 to 10 
years, Ingersoll-Rand's annual business growth in East Asia 
should increase by 20 percent as the company's business focuses 
to that region.
    We have had a substantial presence in China since 1922. 
Likewise, 80 years ago we established Ingersoll-Rand India. 
Today IR India has several manufacturing operations in India 
and employs over 900 people.
    We were greatly encouraged by the recent visit of President 
Bush to India and the surrounding countries. He made it clear 
that we have significant policy interests in the region and 
that we should be doing more to promote the economic interests 
of both countries through workable immigration and trade 
policies.
    We have also been encouraged by the improvements announced 
in the Joint Vision: Secure Borders and Open Doors information 
initiatives announced by Secretary of State Rice and Chertoff.
    Obviously, the pre-screening partnership with the American 
Chambers Abroad, the improved security advisory opinion 
process, and the online visa appointment interviews have 
helped. However, we continue to experience challenges at the 
consulates, particularly in India. As some of the other 
panelists have stated, 163 days to obtain an interview in 
Chennai, Mumbai is at 162 days, New Delhi at 98. Mexico is at 
least 100 days in most places. Brazil, a 92-day wait. Paris is 
currently experiencing 116 days to obtain a visa appointment 
because they no longer meet the biometric passport 
requirements.
    In addition to delays to getting an interview, processing 
times to actually obtain the visa afterwards has increased to 
up to a month in Mexico. So they wait 3 months or 4 months to 
get a visa appointment and another month to get their passport 
back and be able to travel.
    The delays impact Ingersoll-Rand's business objectives most 
severely in India and China. They have caused many of our 
employees and managers to miss critical business meetings and 
training sessions in the United States.
    Additionally, the new process is to return all visas 
through the mail. Typical processing days may take 3 to 5 days 
for those passports to come back. But we have experienced 
extremely sloppy processing, particularly at the consulate in 
Chennai. And we have had errors in the visas or incorrect 
interpretation of immigration law that have caused our 
applicants to return to the consulate, sometimes two or three 
times, to correct these errors. Our company has spent $40,000 
in 2005 overcoming incorrect visas that have been issued in 
India as well as trying to advance appointments at the 
consulates.
    Periodically we think things are improving in India, and 
they identify that Ingersoll-Rand is an important company to 
them and we are a familiar company. And then it just slips back 
into the same treatment. Just recently we had another incorrect 
application of 212(E), which is a J-1 visa restriction. 
Incorrect visa restrictions can affect the employee's future 
travel to the United States and can severely impact our 
company's product design projects and future employment with 
those people in the United States.
    The Bureau of Consulate Affairs has encouraged business to 
provide additional evidence to assist consular offices in 
determining applicants' eligibility. We have actually 
instituted an internal process whereby we provide additional 
letters based on a questionnaire we send out to employees and 
customers to actually pull together the business reason for the 
travel, why the person qualifies as a business visitor under 
the different criteria that are listed in the Foreign Affairs 
manual, and also to help them establish their strong ties to 
their home countries.
    We have tried to work closely with the State Department and 
the Chamber of Commerce particularly has been encouraged by the 
Joint Initiative statement that has come out. But we would like 
to see some sort of a trusted traveler program initiated, a 
priority visa processing option at some of the consulates. We 
feel expanded training for consular offices is really a 
critical issue. And we need to find ways to reduce consular 
delays sooner rather than later. We can't wait for a new 
consulate in Hyderabad in 2008.
    Additionally, I have outlined a number of things in my 
testimony that are very specific, but one of the issues that I 
would just like to raise here is renegotiating the issue of 
reciprocity. If we can extend out the visas so that people have 
the full period of duration for a visa and that they're not 
constantly going back to the consulates to revalidate visas or, 
you know, have further restrictions. For example, somebody in 
China on an H-1B visa still only gets two entries in a 6-month 
period. So if those things could be renegotiated, it would be 
very helpful.
    Additionally, the consulates are burdened by revalidating 
visas, which now does require a personal appearance.
    We're excited about the prospect of the creation of a 
private-sector advisory committee to the Department of State 
and we look forward to working with the State Department on 
these various initiatives.
    Thank you.
    [The prepared statement of Ms. Dickson follows:]

    [GRAPHIC] [TIFF OMITTED] T7512.075
    
    [GRAPHIC] [TIFF OMITTED] T7512.077
    
    [GRAPHIC] [TIFF OMITTED] T7512.078
    
    [GRAPHIC] [TIFF OMITTED] T7512.079
    
    [GRAPHIC] [TIFF OMITTED] T7512.080
    
    [GRAPHIC] [TIFF OMITTED] T7512.081
    
    [GRAPHIC] [TIFF OMITTED] T7512.082
    
    [GRAPHIC] [TIFF OMITTED] T7512.083
    
    [GRAPHIC] [TIFF OMITTED] T7512.084
    
    [GRAPHIC] [TIFF OMITTED] T7512.085
    
    [GRAPHIC] [TIFF OMITTED] T7512.086
    
    [GRAPHIC] [TIFF OMITTED] T7512.087
    
    Chairman Tom Davis. Well, thank you all very much.
    I guess one of the issues that arise is our economy is very 
globalized today. We have, you know, an old saying, 
globalization is like a steamroller; you either get on board or 
you are destined to become part of the pavement. We see that on 
the technology side. I see that out in my district all the 
time, where we have just a--it is a technology hub, and I hear 
complaints about getting key people in and out. But today, for 
the first time, we really understand that music and travel, I 
think Forrest Gump would say it is like peas and carrots. I 
mean, they just go together. And the fact that is not only 
expensive, but that it is taking--where people are missing 
performances and the like, and a lot of solo artists can't 
afford to miss a performance. So that adds another dimension, I 
think, and a sense of urgency to the kind of things that we are 
trying to do.
    Let me ask a couple of questions. First of all, let me 
start, Mr. Ma and Ms. Gibson, with you.
    Mr. Ma, in your testimony, you talk about the challenges 
some of the Silk Road artists have faced in obtaining visas. 
What is that financial burden on that individual in dealing 
with the visa problem? Does it pose a financial burden as well?
    Mr. Ma. I believe so. I think, obviously, some of the 
burden is borne by the Silk Road Project, which is a nonprofit, 
but I think the musicians that are coming are so eager to do 
their work, are so passionate, that I think they will incur 
costs to themselves that they will never even talk to us about. 
And so I can't give you exact figures, but for the income that 
they're getting in other countries, I would say that it's 
actually a substantial amount of money for them.
    Chairman Tom Davis. I mean, you heard Ms. Dickson testify, 
and you understand that, you know, if you are Ingersoll-Rand or 
you are a Microsoft or you are trying to get people, the State 
Department understands that urgency of getting people into the 
country if you are from a technology company. And there are 
still problems even there where we have identified it. But for 
you, compared to what many would consider to be the more 
traditional businesses like the Microsofts or Ingersoll-Rand, 
do you think that artists in general receive about the same, 
more consideration, or less consideration when applying for a 
visa?
    Mr. Ma. I think that depends on which countries that 
they're coming from. And I don't--I'm not an expert on your 
part of the equation. But I would say that, as I was listening 
to all of you testify, I would say that it's about the same.
    Ms. Gibson. Echo the comments.
    Mr. Ma. Yeah. We could be giving the same speech over and 
over and over again.
    Ms. Gibson. Absolutely.
    Mr. Ma. And I think that's the same creativity issues, 
innovation, that if we don't have those contacts, the people-
to-people contacts, I think we really suffer on the innovation 
front.
    Chairman Tom Davis. Well, let me zero in this way. You 
travel all over the globe. Ms. Gibson, your artists travel all 
over the globe. And you see the practices of a lot of other 
different countries. In your opinion, are foreign travelers 
choosing to visit other countries for business or pleasure 
instead of coming here because of our security requirements? 
And how do we stack up against other countries?
    Ms. Gibson. Well, I'll take that as a first response. 
That's absolutely the case. I travel myself regularly on behalf 
of the association and the industry and at markets that are 
business markets and arts markets all the time. And we are 
finding out increasingly that artists, who would normally come 
from abroad to the United States, are deciding not to come to 
the United States. They don't look to the United States as an 
open marketplace any longer. The visa process is very onerous 
for them. In parts of the world networks are developing that 
don't look to our culture as a standard bearer or marker for 
the entire cultural and entertainment community. So this is 
definitely happening.
    And we have heard about a couple of countries discussing 
reciprocity legislation that would, in some ways, restrict the 
movement of U.S. artists abroad for the same kinds of 
activities--which we certainly don't want to see.
    Chairman Tom Davis. OK. I am here so I can keep going with 
questions. I have a ton of questions.
    Mr. Slater, how important are the trade shows that you put 
together to the bottom line of the businesses that participate? 
And are most of the participants small businesses or large 
businesses?
    Mr. Slater. The trade show industry, at least in the 
equipment manufacturing industry, the United States has a very 
strong position worldwide. You made a good point about large 
versus small. The huge companies, the Caterpillars, Ingersoll-
Rands, they have the wherewithal to compete globally. But the 
medium, small companies, which make up probably 80 percent of 
our membership, the trade shows are their biggest marketing 
opportunity every year. And if they can't bring customers to 
that, they will not compete.
    Chairman Tom Davis. You also, in your testimony, you talk 
about a letter from the head of an Indian delegation to one of 
your trade shows, which said, ``the U.S. embassy does not want 
to promote business between the two countries.'' Have you been 
able to respond to that businessman and offer him any hope that 
things will be different at your next trade show?
    Mr. Slater. Oh, yes, I think they understood that we came 
to bat for them and so did the Department of Commerce. We hope 
they'll come back again. But at the same time, as you work with 
100 people in a delegation, you just don't know how many just 
don't show up next time. I think that's our biggest concern. 
The leader of the delegation we can address, but it's the 20, 
30 people that won't even, you know, come to the table or come 
with us next time.
    Chairman Tom Davis. Mr. Schofield, you represent one of the 
largest companies in the world. Certainly the brand name, 
Microsoft, is ubiquitous. You quite correctly note in your 
testimony that a 160-day wait for a visa interview, just for 
the interview, is just totally unacceptable in today's business 
environment. To what extent can Microsoft leverage IT to 
mitigate this and reduce the need for in-person interaction 
with foreign employees? Any thoughts on the technology to be 
able to do that?
    I mean, a lot of the work today is not being done in 
offices anymore or face-to-face, particularly on repeats. You 
get someone that has had a visa and maybe it is expired. Any 
thoughts on that?
    Mr. Slater. I think that there are a lot of opportunities 
there. You know, one of the frustrations for us, and I 
mentioned in my testimony, the unpredictability of this 
process. And we understand that there certainly needs to be 
time for the State Department to do background checks between 
the time an application is filed and the time an interview 
happens. There's no transparency to us on the outside about 
what actually happens there. And for national security reasons, 
I certainly understand why there certainly will never be 
complete transparency. That makes perfect sense to me as an 
American citizen that there are good security reasons for that.
    So it's hard for me to tell you, sort of, without knowing 
the exact details of how that process works, how much IT could 
help there. There's clearly opportunities for IT to help there, 
particularly since the consular offices are spread around the 
globe. There's opportunities for IT to provide better 
communications, to streamline those communications, to move 
information to the places where it needs to be faster.
    If I can actually come back to the question you asked Mr. 
Slater about the importance of trade shows. I would just want 
to add from my point of view, working with the larger computing 
industry and the research community worldwide, trade shows and 
conferences are super important for us and they're important 
for the academic research community as well. Literally in the 
United States there are hundreds of research and industry 
conferences put on every year and they attract the best and 
brightest of those people to the United States to participate 
in those conversations and help to advance the state-of-the-
art. They're absolutely the central part of the innovation 
process in my industry as well.
    So beyond just sort of the trade show part, there's a 
larger set of conferences that it's super important for us to 
make sure that we keep healthy and that we can attract the 
right people from around the world to them.
    Chairman Tom Davis. Well, let me also ask about the visa 
denials, because we know it's a long queue. Mr. Schofield, you 
talked about the unpredictability, and I took that two ways. 
One, unpredictability because you don't know how long it is 
going to take just for your interview. You never know. You 
build in 30 days or 40 days and it may take twice that. But 
also, unpredictability as to the result. Do you find that the 
results are random? And I don't know if anybody has had the 
experience with just why was somebody denied here or there. Our 
office gets it because I have a lot of foreign-born people in 
my district. And you always have relatives trying to come over 
for graduations, weddings, funerals, those kind of things. You 
know, with a funeral, you don't get 60 days, you don't get 120 
days. You need to come right in. And it has been almost 
embarrassing sometimes dealing with our embassies trying to 
move people ahead and get that sense of urgency, and then 
sometimes the denials that come forward.
    Now, on the other hand, you have to recognize that if one 
wrong person gets in here and does something evil, that they 
are going to go back and everybody is going to be questioned 
who was in the queue. So we understand the need to balance all 
of that. We have been pretty successful the last 3\1/2\ years.
    Have you seen the random nature of visa denials, any of 
you? Does anyone want to comment on that?
    Mr. Schofield. I have seen exactly that. I can give you an 
example. Every March we have a large internal trade show where 
we roll out all of our best research prototypes to share with 
the rest of the company. It is the single biggest event that 
our research organization does every year. We pick the 
technology prototypes in November so that we have 4 months to 
get visa applications in and processed for all the people we 
are bringing from our labs in Cambridge, England, from China, 
from India. And 3 months later we find out that some number of 
them have been denied for unspecified reasons. And we can never 
predict which of them it will be. This is a huge frustration. 
It is a huge problem for us because then we end up scrambling 
at the last minute to try to find somebody else who could 
actually give that demonstration and represent it to the rest 
of our company.
    Chairman Tom Davis. And let me ask our artists, are you 
experiencing the same problems?
    Ms. Gibson. It's the same. It's the same with ensembles 
coming in. We even had a case----
    Chairman Tom Davis. You have a string quartet and three 
members show up?
    Ms. Gibson. This happened to Lincoln Center a couple of 
years ago. They had an entire performance group coming from 
Iran, for Tazieh, and a half-dozen of the performers couldn't 
come through at the last minute. It has happened with Mexico.
    We had a case with our own--we produce the largest 
international performing arts marketplace and trade show in New 
York. And a year ago, we had a young woman with her delegation 
from China. And we actually wrote to our embassy in Shanghai to 
find out what had happened. They wouldn't tell her, but they 
did tell us, that she wasn't convincing enough in her interview 
that she would return to her country.
    And we learned that the Kennedy Center, with their China 
Festival this year, they had a number of visas that came 
through, hundreds, but two denials were for two young unmarried 
women who, in their interviews, could not convince the 
interviewer that they would return home.
    Now, we've taken the opportunity to ask in a couple of 
cases, but the artists can never find that out. And it is 
random, seemingly.
    Mr. Ma. I have one example of a composer from Kyrgyzstan 
who actually has performed at the Washington Mall during the 
Folklife Festival. He was commissioned by Carnegie Hall to 
write a composition. And of course he couldn't--at the last 
moment, his visa was denied. And since he's also a performer, 
the composition, obviously, suffered greatly and, I think, as 
his reputation has also suffered, because if you--you know, you 
have a chance to do something and you don't come through--it's 
not his fault--but that also affects him very much.
    And there are other examples, where I think we would be 
performing at Millennium Park in Chicago, but because we know--
this is in June--we know the visa process from Mongolia takes 
so long, we could not even consider inviting one person who 
would be absolutely crucial for that event.
    Chairman Tom Davis. As you talk to artists around the 
world, is there anything--I mean, is there one thing about the 
U.S. visa system that is most disturbing to them? I mean, can 
you----
    Mr. Ma. Well, I think dignity is a huge issue that I think 
we're all talking about. I know there are rules and they're 
many and you're in the process of thinking through them, and 
the costs. But I think, for so many people who are here to 
actually generously share their traditions and their knowledge 
and their thinking, to them to be thwarted in a less----
    Chairman Tom Davis. We ought to be rolling out the red 
carpet for these people.
    Mr. Ma. Well, the thing is that, you know, the lines that 
people go through and the security checks that, I think, for 
the frequent visitors are such that in fact many of our 
friends--they still come, but I think there are certainly many 
people that decide that they don't want to. They would prefer 
not to.
    Chairman Tom Davis. I have a couple of other questions. Mr. 
Slater, you had to go to the Department of Commerce a couple of 
times. Does that move you up the queue? How effective is that, 
when they get involved?
    Mr. Slater. Well, it's been effective. The problem is with 
a small staff--we only have 50 people in our office--it's very 
difficult for us to keep an eye on all the countries we're 
trying to promote in. We've been very successful in China, but 
not as successful when we get to India. I guess we've been in 
the International Buyer Program now for our trade shows for 20 
years, and that does help.
    Chairman Tom Davis. Ms. Dickson, you testified that visa 
delays impact Ingersoll's business most severely in India and 
China, the two fastest growing countries in the world.
    Ms. Dickson. It's where our business is, it's been 
identified as target markets for us.
    Chairman Tom Davis. Could this prompt Ingersoll to begin 
locating such events outside the United States in an effort to 
bypass the visa problem?
    Ms. Dickson. Well, I think it's very important for 
everybody to understand that most of our manufacturing is here 
in the United States right now. Half of our manufacturing 
plants are here. However, we are a global company and we do 
have manufacturing operations around the world. If we want to 
keep jobs in America and manufacturing in America and export 
those products around the world, we have to allow our customers 
easy access to come in and visit our plants and actually be 
able to see our product. If not, they could be manufactured 
other places. That's not our intent at this time. Our intent is 
to enable our businesses to come to America. All our sector 
headquarters are in America and we like that easy access for 
our customers.
    Chairman Tom Davis. In your testimony, you talked about the 
challenges Ingersoll trainees in the J-1 Exchange Visitor 
Program face in traveling from Bangalore to the consulate in 
Chennai.
    Ms. Dickson. That's correct. It's a 9-hour trip. And our 
exchange program is a training program. And just as they were 
saying about people who are young and unmarried, lots of times 
those are our new hires, who are fairly young, may not be 
married, may not own a home, may not be able to really 
establish those strong ties to their home country for the 
consular officer. However, the Ingersoll-Rand program has been 
up and operating for 20 years. In 20 years time, we have never 
had one person come to the United States and not return to 
their home country or region. It is a condition for being part 
of the program.
    Chairman Tom Davis. The President recently announced the 
location of a new consulate in Hyderabad. What impact will this 
have on Ingersoll-Rand, and do you support the decision to put 
it in Hyderabad versus Bangalore?
    Ms. Dickson. I wanted Bangalore.
    Chairman Tom Davis. How about you, Mr. Schofield? You have 
more business in Bangalore, don't you?
    Mr. Schofield. We have facilities in both Bangalore and 
Hyderabad. We actually have a larger facility in Hyderabad.
    Chairman Tom Davis. OK. You probably need them both places.
    Mr. Schofield. We need it in both places. We're happy to 
see this move by the State Department. And we hope that, as 
part of this, they seriously address the staffing issues in the 
consular offices.
    Chairman Tom Davis. Thank you.
    Ms. Dickson. And there may be some other options as well. I 
know they're starting this pilot program, that they're going to 
videotape and try to do the consular interviews in that manner. 
I was at a recent conference and they suggested that actually 
requires more personnel because they're setting up two 
different offices.
    However, if you could somehow set up smaller offices around 
and do something like that, be able to take the biometrics and 
do the interview that way, or go to some sort of a pre-
submission of the documents and be able to, before the person 
comes in to the interview, have a review of those documents so 
that when they actually get there, it's the last step.
    Chairman Tom Davis. You know, you will probably always have 
some unpredictability to this process. You will probably get 
some random--you get that in everything. But a 160 day wait, 
inexcusable.
    Ms. Dickson. Ridiculous.
    Chairman Tom Davis. Ninety days is inexcusable. 
Particularly in a global economy, where things are moving at 
warp speed and the competition doesn't put up the same 
restraints. So finding that balance is important. But hearing 
these stories, I think, helps us as we formulate our next 
activity up here, and I want to thank this panel for adding a 
lot to this hearing today.
    Thank you very much.
    The hearing is adjourned.
    [Whereupon, at 12:50 p.m., the committee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T7512.088

[GRAPHIC] [TIFF OMITTED] T7512.089

[GRAPHIC] [TIFF OMITTED] T7512.090

[GRAPHIC] [TIFF OMITTED] T7512.091

[GRAPHIC] [TIFF OMITTED] T7512.092

[GRAPHIC] [TIFF OMITTED] T7512.093

[GRAPHIC] [TIFF OMITTED] T7512.094

[GRAPHIC] [TIFF OMITTED] T7512.095

[GRAPHIC] [TIFF OMITTED] T7512.096

[GRAPHIC] [TIFF OMITTED] T7512.097

[GRAPHIC] [TIFF OMITTED] T7512.098

[GRAPHIC] [TIFF OMITTED] T7512.099

[GRAPHIC] [TIFF OMITTED] T7512.100

[GRAPHIC] [TIFF OMITTED] T7512.101

[GRAPHIC] [TIFF OMITTED] T7512.102

[GRAPHIC] [TIFF OMITTED] T7512.103

                                 <all>

</pre></body></html>
